<html>
<title> - ASSESSING DHS 10 YEARS LATER: HOW WISELY IS DHS SPENDING TAXPAYER DOLLARS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








   ASSESSING DHS 10 YEARS LATER: HOW WISELY IS DHS SPENDING TAXPAYER 
                                DOLLARS?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT
                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2013

                               __________

                            Serial No. 113-2

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE

81-460 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Keith J. Rothfus, Pennsylvania       Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
                      Ryan Consaul, Staff Director
                   Deborah Jordan, Subcommittee Clerk
                  Tamla Scott, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency............................     1
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency......................................     3

                               Witnesses

Mr. James S. Gilmore, III, President and CEO, The Free Congress 
  Foundation:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Mr. Shawn Reese, Analyst, Emergency Management and Homeland 
  Security Policy, Congressional Research Service:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Rick ``Ozzie'' Nelson, Vice President for Business 
  Development, Cross Match Technologies:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27
Ms. Cathleen A. Berrick, Managing Director, Homeland Security and 
  Justice Issues, Government Accountability Office:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                                Appendix

Question From Chairman Jeff Duncan for James S. Gilmore, III.....    59
Questions From Chairman Jeff Duncan for Rick ``Ozzie'' Nelson....    59
Questions From Chairman Jeff Duncan for Cathleen A. Berrick......    59

 
   ASSESSING DHS 10 YEARS LATER: HOW WISELY IS DHS SPENDING TAXPAYER 
                                DOLLARS?

                              ----------                              


                       Friday, February 15, 2013

             U.S. House of Representatives,
                     Subcommittee on Oversight and 
                             Management Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Rothfus, Hudson, Daines, 
Barber, Payne, and O'Rourke.
    Mr. Duncan. The Committee on Homeland Security, 
Subcommittee on Oversight and Management Efficiency will come 
to order. The purpose of this hearing is to examine the 
efficiency of the Department of Homeland Security and how 
wisely they are spending taxpayer dollars.
    Let me begin by extending a warm welcome to the other 
Members of the subcommittee. I am looking forward to working 
with Ranking Member Ron Barber, as we both share a strong 
commitment to U.S. border security and ensuring our border 
agents receive the support that they need to protect the 
homeland. Last September, Ron and I attended the dedication 
ceremony of the Brian A. Terry Border Patrol Station in 
Arizona, honoring Border Patrol Agent Brian Terry, who was 
killed in December 2010 in the line of duty in Arizona.
    I also look forward to a strong bipartisan cooperation in 
helping to make the Department of Homeland Security as 
efficient and effective as possible.
    I would also like to introduce our new freshman Majority 
members. Today we have got Mr. Keith Rothfus from Pennsylvania 
and Mr. Richard Hudson of North Carolina. Later joining us will 
be Mr. Steven Daines of Montana. They bring a wealth of 
experience to their new roles in the Congress and on this 
subcommittee, and I look forward to leveraging their experience 
and knowledge to provide effective oversight of DHS.
    Let me pause for just a minute to thank the subcommittee 
staff who have worked diligently to put this first hearing 
together and preparing the Members of the committee. So thank 
you for that. I now recognize myself for an opening statement.
    Next month marks 10 years since the creation of the DHS 
through Homeland Security Act of 2002. The terrorist attacks of 
September 11, 2001, forced us to fundamentally rethink the 
threats our Nation faces and our approach to defending the 
homeland. As the 9/11 Commission report documents, before 9/11 
no Executive department had as its first priority the job of 
defending America from domestic attack. That changed with the 
creation of the Department of Homeland Security. DHS was 
established to: No. 1, prevent terrorist attacks within the 
United States; No. 2, reduce America's vulnerability to 
terrorism; and No. 3, help America recover from any attacks 
that may occur.
    DHS, however, has faced the massive challenge of creating a 
new organization by integrating 22 separate Federal agencies 
and components into a unified department. It is important to 
always remember the gravity of the issues DHS faced in its 
inception and how those experiences affect the Department's 
current responsibilities to protect critical infrastructure, 
develop countermeasures against chemical, biological, 
radiological, and nuclear threats, secure our borders and 
transportation systems, and manage the Federal Government's 
response to terrorist attacks and major disasters.
    Today, we seek to assess how wisely DHS is spending 
American taxpayer dollars. Has it been successful in meeting 
its mandate established by the Homeland Security Act of 2002? 
We know that there have been 54 publicly-known attempted 
terrorist attacks on the United States that have been thwarted 
since 9/11. However, incidents such as the 2009 attack on Fort 
Hood that killed 13 Americans, or the 2009 Christmas day 
underwear bomber, and the 2010 attempted car bombing in Times 
Square remind us to remain ever vigilant.
    But are foiled terrorist attacks a good measure of DHS' 
success or are there other criteria the American people should 
use to evaluate the DHS? Today, many Americans question how DHS 
uses the resources entrusted to it. In 2004, DHS had a budget 
of $39 billion. Now it has a budget of almost $60 billion, 
employs more than 225,000 people, operates in over 75 
countries, and is the Nation's third-largest Federal agency.
    Congressional watchdogs have issued thousands of reports 
with ways to improve the efficiency of DHS and save taxpayer 
dollars. The Government Accountability Office exposed billions 
of dollars in cost overruns that major DHS acquisition programs 
have incurred. As we learned yesterday, DHS remains on GAO's 
high-risk list in several areas, including the Department's 
management. In addition, the DHS Inspector General has 
identified over $1 billion in questionable cost.
    DHS, however, has yet to implement these cost savings 
opportunities. In November 2012, the Inspector General also 
identified significant challenges in how the Department 
protects the homeland and manages its operations. The report 
noted difficulties for TSA in securing our airports, for CBP in 
identifying travelers entering the United States, and for FEMA 
in determining whether to declare Federal disasters despite 
spending $4.3 billion in response efforts annually. The IG also 
stated that much more work remains for DHS to efficiently 
manage its finances, consolidate old legacy databases to 
efficient data systems, and improve acquisition outcomes.
    Other examples of unacceptable waste by DHS have also been 
revealed. For example, a recent Congressional investigation 
found that TSA has over 3,500 administrative staff in 
headquarters with an average salary over $100,000. These 
figures don't include the number of TSA screeners across the 
country, which ballooned to almost 48,000 in 2011, resulting in 
TSA spending over $3 billion--half its budget--a year in 
payroll, compensation, and benefits.
    According to press reports, DHS generally doled out $61 
million in salary awards in 2011 despite the hard economic 
times and reduced take-home pay for many hardworking Americans. 
Since its inception, DHS has also spent more than $35 billion 
in homeland security grants. A recent Senate report documents 
how DHS prioritizes its grant funding with DHS employees using 
grant funds to pay a thousand-dollar fee for a conference at 
the Paradise Point Resort and Spa, where they participated in 
zombie apocalypse training. Other examples exist of DHS 
spending money on children's mascots, overpriced law 
enforcement training materials, and even bagpipes for the 
Customs and Border Protection.
    Now, while DHS has taken steps to improve its day-to-day 
management, I believe that the American people still deserve 
better. We are over $16 trillion in debt. Hardworking families 
have had to make difficult budget decisions. DHS must do the 
same. The numerous examples of DHS programs with cost overruns, 
schedule delays, and performance problems cannot continue in 
this constrained budget environment. We must help ensure DHS 
becomes a better steward of taxpayer dollars.
    This 10-year anniversary of the creation of DHS presents 
this subcommittee with an opportunity to reflect on what has 
worked, what has not worked, and where DHS needs to improve. 
Recommendations by today's witnesses will help us better 
understand the issues that DHS faces and identify ways to help 
DHS improve, and I look forward to their testimony.
    The Chairman will now recognize the Ranking Minority Member 
of the subcommittee, the gentleman from Arizona, Mr. Barber, 
for any statement he may have.
    Mr. Barber. Thank you, Mr. Chairman. It is a pleasure to be 
here this morning. Welcome to the witnesses and our Members of 
the subcommittee. I am looking forward to working with the 
Chairman in a productive and bipartisan manner as we conduct 
oversight of the Department of Homeland Security and other 
homeland security functions. It is apparent to me already, 
having met with the Chairman and spoken with him at length, 
that we see eye-to-eye on many issues related to the efficiency 
and effectiveness of the Department. I appreciate his 
courtesies and collaboration with me as we move this important 
agenda forward.
    This is our first subcommittee meeting of the 113th 
Congress, and I cannot think of a better issue to examine than 
the manner in which the Department spends hard-earned taxpayer 
money. The Department of Homeland Security has one of the 
largest budgets in the Federal Government. Each year, 
approximately $40 billion in appropriated funds flow in and out 
of the Department. Among other things, these funds are used to 
pay over 220,000 employees, secure our aviation system, provide 
disaster aid to States and local governments, and purchase the 
equipment used by those protecting our borders. We owe it to 
the taxpayers to ensure that these funds are appropriately 
used, fully accounted for, and spent wisely.
    Unfortunately, over its 10-year history that has not always 
been the case at the Department of Homeland Security. My 
Congressional district in southern Arizona includes over 80 
miles of U.S.-Mexico border, and my constituents along the 
border are particularly affected by criminal activities along 
the border, with nearly 40 percent of all drug seizures and 
apprehensions occurring in the Tucson sector. This is 
unacceptable. We must do better. The Department must do better.
    I am reminded as I think about safety along the border of 
two deaths that have occurred within the last 2\1/2\ years. The 
Chairman mentioned that we attended a dedication ceremony of a 
station on the Southwest Border for Brian Terry, a Border 
Patrol agent who was killed in the line of duty. I am also 
reminded of the death of Rob Krentz, a rancher, fourth-
generation rancher who was killed on his own land by a cartel 
member. The safety of our citizens and the safety of the men 
and women who protect our border is paramount. The Department 
must respond and must use the money wisely to do so.
    As their representative, and one of only 10 Members of 
Congress that represent a district that shares a border with 
Mexico, I am committed to ensuring that we improve border 
security, particularly along the Southwest Border. As I visit 
with ranchers, Border Patrol agents, and local law enforcement 
agents in my district, I have seen first-hand how the 
Department uses taxpayer dollars to secure the border, and I 
know we can do better and we can do more.
    In 2006, the Department of Homeland Security announced its 
plan to install technology along the Southwest Border that 
would serve as a virtual fence and provide the Border Patrol 
with information it needs to secure the border. Unbelievably, 
the contract that allowed that project to go forward did so 
specifically prohibiting Border Patrol agents, those who work 
on the ground, from providing input into the design, 
development, implementation of that system. That is 
unacceptable. Seven years and over $1 billion later, we are 
still without the plan that was originally envisioned. In 
subsequent iteration, the Arizona Border Surveillance 
Technology Program remains in question.
    According to the GAO, the Department does not have the 
information necessary to support and implement the estimated 
$1.5 billion plan, which is the successor to the canceled 
multibillion-dollar SBInet. In addition to finding that the 
Department has not yet demonstrated the effectiveness and 
suitability of its new approach for deploying surveillance 
technology, the GAO also found that $1.5 billion, 10-year cost 
estimate for the program may not be reliable. If this new plan 
goes awry, the Department will have spent over $2 billion in an 
attempt to develop border security technology with little more 
to show than canceled programs and canceled checks to the 
contractors.
    This is but one example of why the Department must fix its 
broken acquisition system to improve how it does its job cost 
analysis and to make sure that we have a better way of 
purchasing and deploying technology. To its credit, the new 
administration has made some improvements. The newly created 
Office of Program Accountability and Risk Management, designed 
to manage the day-to-day oversight of the acquisition programs, 
appears to be a step in the right direction. I am concerned, 
however, that only 45 staff are in this office, responsible for 
over $18 billion.
    Making the best use of scarce taxpayer dollars, and doing 
all it can to protect men and women who live, Americans who 
live along the border and across our country, is the first 
responsibility of this Department and a primary responsibility 
for this committee. I look forward to today's hearing and the 
testimony and our continuing oversight of this important topic. 
I yield back. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Ranking Member.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    Now, we are pleased to have a very distinguished panel of 
witnesses before us today on this topic. The Honorable Jim 
Gilmore is the former Governor of Virginia, and chairman of the 
Congressional Advisory Panel to Assess Domestic Response 
Capabilities for Terrorism Involving Weapons of Mass 
Destruction. Prior to serving the Commonwealth of Virginia as 
Governor from 1998 to 2002, Governor Gilmore was Virginia's 
attorney general. He also served in the United States Army as a 
counterintelligence agent. Thank you for that service, sir. In 
2009, Governor Gilmore became president and CEO of Free 
Congress Foundation.
    Mr. Shawn Reese is an expert on homeland security policy at 
the Congressional Research Service. He has written numerous 
reports to Congress on Federal, State, and local homeland 
security policy issues. He has testified before the House 
Government Reform and Oversight Committee on the Homeland 
Security Advisory System, the House Homeland Security Committee 
on Federal counterterrorism training programs. Prior to coming 
to CRS, Mr. Reese was an officer in the United States Army for 
10 years. Thank you for your service, sir.
    Mr. Ozzie Nelson currently serves as a senior associate in 
the Homeland Security and Counterterrorism Program at the 
Center for Strategic and International Studies. Mr. Nelson 
joined CSIS in September 2009 after retiring from the United 
States Navy. Thank you for your service, sir. In 2005, he was 
selected to serve as an inaugural member in the National 
Counterterrorism Center's Directorate of Strategic Operational 
Planning. Boy, that is a mouthful. Prior to his assignment at 
the NCTC, Mr. Nelson served as an associate director for 
maritime security in the Office of Combating Terrorism on the 
National Security Council.
    Ms. Cathleen Berrick is the managing director of homeland 
security and justice issues at the Government Accountability 
Office. In this position, she oversees GAO's reviews of 
Department of Homeland Security and Department of Justice 
programs and operations. Prior to being named managing director 
by Comptroller General Gene Dodaro, she oversaw GAO's reviews 
of aviation and surface transportation security matters, as 
well as the Department of Homeland Security's management 
issues. Prior to joining GAO, Ms. Berrick held numerous 
positions at the Department of Defense and the U.S. Postal 
Service.
    Thank you all for being here today. The Chairman will now 
start by recognizing Governor Gilmore to testify.

STATEMENT OF JAMES S. GILMORE, III, PRESIDENT AND CEO, THE FREE 
                      CONGRESS FOUNDATION

    Mr. Gilmore. Congressman, thank you very much. Mr. 
Chairman, Mr. Ranking Member Barber, Members of the committee, 
thank you for the invitation to address this important issue 10 
years on, after 9/11, the 9/11 attack. The Free Congress 
Foundation, which can be seen at freecongress.org, we started a 
Center for National Security there to address many of the big 
picture strategic issues, but not the least of which is 
homeland security issues.
    As the Chairman said, I chaired the National Congressional 
Advisory Panel on Homeland Security for 3 years before the 9/11 
attack, and for 2 years thereafter. While I was the Governor of 
Virginia I was doing that work at the beginning. Ten years on, 
we are in a position to do some assessment. The colleagues who 
are here with me today are certainly experts in this field. I 
would like to address very quickly some of the strategic issues 
for just a moment.
    The fundamental question, I think, for the committee, the 
subcommittee and the full committee, is: Do you really have a 
strategic plan that is adequate to safeguard the Nation? 
Really, do you? Is Homeland Security structured to really carry 
out that? How can you really assess the effectiveness of the 
Department of Homeland Security unless you examine their 
mission and their strategic plan and whether or not they are 
successful with that? You can focus, of course, on Customs and 
Border, Immigration, TSA, Coast Guard, the Office of 
Preparedness, and the expenditure of the money in order to 
carry out these missions. But we at the Advisory Panel did not 
initially recommend the office because it doesn't include the 
Department of Defense, the CIA, the FBI, and most importantly, 
local and State officials.
    The question really before the committee is, has the 
strategic plan included enough to be able to really secure the 
homeland? I point to two issues. Al-Qaeda has said in their 
public statement that their goal is to collapse the economy of 
the United States. That is what they have said. I think that 
the committee has to remember that within the context that if 
we waste money or carry out an ineffective program that draws 
too much money unnecessarily, then we actually carry out the 
mission of al-Qaeda. That is why this committee's work is so 
important.
    Second, I want to point to the issue of drug traffic on our 
Southern Border, precisely as the Ranking Member did. This is a 
serious danger to the United States, and remains so, and is 
growing. The cartels are extremely vicious. They threaten 
members of the constituency not only in the Southern Border but 
across the United States. The young people who are really 
becoming addicted, and this is not a voluntary matter, this is 
involuntary, are being destroyed, young people's lives are 
being destroyed, and the Nation is being weakened by this kind 
of issue. So the border issues and the issues of cooperation 
with our allies and with our law enforcement people is most 
critical.
    Let me focus in the last minute, 2 minutes on the real 
concern that I have, and that is the issue of the civil 
liberties and civil freedoms of the people of the United 
States. The real danger here is that there will be another 
attack. In fact, it is almost likely that there will be another 
attack. It is in the hands of our adversaries. If such an 
attack results in either panic, hysteria, or insecurity in the 
minds of the people of the United States, there is danger of 
overreaction, not only in the public, but specifically out of 
the Congress of the United States. I point out that the Patriot 
Act was passed in 26 days after 9/11, without serious full 
consideration, because there was a political need by the 
Members of the Congress to get reelected and to get those votes 
and show real activity. This can happen again.
    Now, I am not condemning the Patriot Act, but I am 
concerned about the mindset that could occur if there is 
another attack and we are not appropriately prepared. So I 
would suggest to the Members of the committee that a goal that 
we should see in homeland security is more public discussion 
with the people of the United States about the nature of the 
true threat, whether or not there is a real danger, what the 
potential preparedness is of the Department of Homeland 
Security and the Nation as a whole, how local people should be 
cut in and participate, whether or not we are prepared to 
respond to that kind of attack.
    This kind of leadership opportunity is very significant. It 
is a big opportunity for the Department of Homeland Security. 
But the Department is quiet in terms of its actual discussion 
with the American people. That confidence and calmness will be 
necessary in the time of the crisis to make sure that we don't 
restrict the liberties of the American people in exchange for 
security. The goal of the United States has to be to have a 
response plan in place, well understood, that not only secures 
this Nation, but also simultaneously and without any mitigation 
secures the civil liberties of the American people at the same 
time.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gilmore follows:]
              Prepared Statement of James S. Gilmore, III
                           February 15, 2013
                              introduction
    Chairman Duncan, it is honor to be here today. I commend you and 
House Homeland Security Chairman Mike McCaul for holding these hearings 
on reviewing American homeland security policy as an institution for 
the 21st Century and checking how wisely we are spending our taxpayer 
dollars. Communicating with the American public about the realities of 
terrorism and how well our country is prepared is essential to 
maintaining our liberty.
    Since it is Abraham Lincoln's 214th birthday this week I think it 
is fitting to start my testimony with a quote from a great American 
leader: ``America will never be destroyed from the outside. If we 
falter and lose our freedoms, it will be because we destroyed 
ourselves.''
    I was invited to testify due to my experience as the former 
chairman of the Advisory Panel to Assess the Capabilities for Domestic 
Response to Terrorism Involving Weapons of Mass Destruction, also known 
as the ``Gilmore Commission.'' From 1999 to 2003, the commission 
produced five reports on the state of our Nation's ability to respond 
to terrorist attacks.
    Of its 164 recommendations, 146 have been adopted in whole or in 
part. The commission thoroughly analyzed how the country achieved the 
goal of National security, as well as how our preparedness related to 
citizens' privacy and the role of the military. As I have said before, 
the agency with the most guns should not always be relied on in a 
crisis; we need to be prepared physically and emotionally when the 
attack comes and that is how we keep our freedom and security intact 
for future generations of Americans.
    An assessment of the effectiveness of the DHS can only be made with 
reference to the strategic plan the Department seeks to implement. The 
first question must always be whether the DHS budget and spending 
implements the National plan.
    Our commission realized that small local communities are both the 
most vulnerable and the most difficult to secure, due to the higher 
need for private-sector involvement. The commission indentified the 
``New Normal'' and recommended that all communities adopt this plan. 
This program developed a plan of preparedness which could be carried 
out by the mayor or local homeland security officials. We outlined the 
following topics to help start the process for localities:
  <bullet> Response/Containment;
  <bullet> Intelligence/Situational Awareness;
  <bullet> Transportation/Logistics;
  <bullet> Public Health/Medical;
  <bullet> Legal/Intergovernmental;
  <bullet> Public Safety/Information;
  <bullet> Infrastructure/Economic;
  <bullet> Community/Citizen.
    On a larger scale, the Congress and the Executive branch should 
focus on the following in creating a National Plan:
  <bullet> State, Local, and Private-Sector Empowerment;
  <bullet> Intelligence;
  <bullet> Information Sharing;
  <bullet> Training, Exercising, Equipping, and Related Standards;
  <bullet> Enhanced Critical Infrastructure Protection;
  <bullet> Research and Development, and Related Standards;
  <bullet> Role of the Military.
    The influence of drugs and other illegal substances are a major 
threat to American national security. The availability of narcotic 
poisons to our population is a key element that is weakening our 
communities. The routes used to traffick drugs can be used by al-Qaeda 
to bring terrorists and weapons of mass destruction into our country. 
In addition to the external threat we must be sensitive to the damaging 
role of overreaction to our civil freedoms. Thus, we must be aware of 
the policy actions we have taken with The PATRIOT ACT and the National 
Defense Authorization Act (NDAA). We must always consider the role of 
the military during a major event like Sept. 11 as we decide on our 
future homeland policy.
                          one-sentence summary
    The Gilmore Commission reports discuss preparedness--including 
strategies, institutions, threats, capabilities, and lessons from other 
nations.
                              main points
Point 1: We should plan strategically, especially at the State and 
        local levels.
    In a free society like our own, there is no way to completely 
eliminate the threat of terrorism. We have unlimited vulnerabilities, 
and the multitude of activities and motivations makes it difficult to 
assess terrorism threats. It is also difficult to assess whether our 
actions are reducing the threats.
    The only solution is to be prepared to mitigate the results of the 
worst-case scenario, especially at the State and local levels. We 
should also make a special point to plan strategically and look forward 
to preemptively recognize threats and manage risks.
    The only way we will achieve preparedness is through true 
cooperation of various Government entities. But Federal, State, and 
local governments do not coordinate strategically. In many cases, they 
have different agendas and clashing organization systems. They are not 
sharing enough information or intelligence, especially about potential 
threats. As a result, we are less prepared than we should be.
    The Federal Government should provide a clear definition of 
preparedness and a strategic plan. Furthermore, States and local 
governments should be empowered to implement the plan.
Point 2: We should use a risk management strategy for prevention.
    Risk management means reducing threats and vulnerabilities. A 
prevention strategy based on risk management might consist of:
    1. Reducing threats: Dismantling terrorist groups and denying them 
        weapons.
    2. Reducing vulnerabilities, day-to-day: ``Building the fortress'' 
        against terrorism.
    3. Reducing vulnerabilities, in the event of an immediate threat: 
        Taking steps to protect against specific attacks.
                         what about prevention?
    The fifth Gilmore Commission Report is an excellent source for the 
prevention community. It explains why the prevention cube is needed:

``Since there is no way to prevent all attacks, a risk management 
strategy is needed. The way to manage risks effectively is to 
collaborate and share information, especially about threats. This is 
the heart of the prevention process.''

Therefore, a true evaluation would include DHS's role and partnership 
with other key National security organizations, including the 
Department of Defense (DOD), the Federal Bureau of Investigation (FBI), 
the National Intelligence establishment, and local and State law 
enforcement authorities. [Source: https://www.preventivestrategies.net/
public/spd.cfm?spi=prevention_library_book3.]
                       spending taxpayer dollars
    The drumbeat of terrorism news never ends in our media society. But 
we must accept that we cannot be completely safe in a free and open 
society like America. One thing that I am most proud of is the emphasis 
the Gilmore Commission placed on for protecting civil liberties as our 
security consciousness is heightened. We must keep our security AND our 
liberty intact. There is nothing worth gaining that will come as a 
result of sacrificing our protection of basic freedoms. Right now, we 
are achieving much while holding true to our values; however, 
considerable room for improvement exists.
    The current budget for the Department of Homeland Security (DHS) is 
$60 billion annually. That is up $20 billion since 2004. According to 
an article published in the New Yorker magazine, Lockheed Martin alone 
receives $30 billion annually in defense contracts. Does that mean we 
aren't even close to spending enough on homeland security for our vast 
country? In my opinion, our defense spending is appropriate based on 
our current National strategy. Can we do better? The answer is a 
definite yes.
    In its fifth and final report in December 2003, our commission 
repeated its prior emphasis that civil liberties must be a critical 
element in the consideration of any program to combat terrorism. The 
commission believed firmly in the principle that Benjamin Franklin 
spoke of more than 250 years ago: ``They that can give up essential 
liberty to obtain a little temporary safety deserve neither liberty nor 
safety.''
    In that final report, in fact, the commission included a treatise 
about the importance of this issue and ways that the Nation might go 
about achieving that result. I have included that document as an 
attachment to my written statement and ask that the subcommittee 
includes it in the record of this hearing.* We believe that it is still 
applicable today.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Though the Nation's preparedness in the event of a terrorist attack 
on our shores was not a primary concern of the Federal Government, 
among some Government sectors (and some in the news media) there was a 
growing anxiety about the numerous terrorist attacks occurring all over 
the world in the 1990s--i.e. the U.S. embassy bombings in Kenya, the 
bombing of the U.S.S. Cole, and the reports of terrorist training camps 
in Afghanistan.
    An example of the coverage prior to Sept. 11 is found here. The 
Washington Post reported on the commission on Dec. 15, 2000:

`` `Panel Calls for Creating Counterterrorism Agency'
``Friday, December 15, 2000; Page A08
``By David A. Vise
``Washington Post Staff Writer

``A federal panel warned yesterday that the United States is vulnerable 
to terrorists wielding weapons of mass destruction, calling for the 
creation of a new counterterrorism agency and the loosening of 
restrictions on CIA agents that prevent them from recruiting 
confidential informants who have committed human rights abuses.

``The panel, chaired by Virginia Gov. James S. Gilmore III, urges 
President-elect Bush to bolster U.S. preparedness against terrorist 
threats within one year. `The United States has no coherent, functional 
national strategy for combating terrorism,' Gilmore said. `The 
terrorist threat is real, and it is serious.' ''

    The commission met with Vice President Cheney at the White House in 
May 2001 to deliver our recommendations to him personally. One of those 
recommendations was to create an Office of Homeland Security (OHS) 
inside the White House within 1 year. It was created a few days after 
Sept. 11, 2001.
    The charge to the Nation's new director of homeland security, Gov. 
Tom Ridge (R-PA), was to develop and coordinate a comprehensive 
National strategy to strengthen the United States against terrorist 
threats or attacks. In the words of President George W. Bush, Mr. Ridge 
had the ``strength, experience, personal commitment and authority to 
accomplish this critical mission.''
    Following the attacks on September 11, more Congressional pressure 
came to bear on the issue and, against the Gilmore Commission's 
recommendations, Congress promoted the OHS to a Cabinet-level agency 
and it became the Department of Homeland Security. Although our 
Commission did not recommend the creation of DHS, now that it is the 
main organ for homeland security, we wish to be helpful and 
constructive to its mission.
    Keep in mind, however: A recent New York Times article stated that 
``of the more than 160,000 homicides in the country since Sept. 11, 
2001, just 14 were carried out by al-Qaeda sympathizers in the name of 
jihad.'' Does that mean we can save more taxpayer dollars and dismantle 
the DHS? Of course not, but we need to understand what are we asking 
the DHS to do and how can the agency should carry out its mission.
                        culture of preparedness
    Members of Congress will always have a bipartisan fear of being 
labeled soft on terrorism. Lobbyists will continue to fight for their 
clients and obtain lucrative domestic security contracts, but we need 
to have a National strategy that communicates to all Americans that we 
are never completely safe. Ten years later we are safer and more 
prepared, but are we spending the peoples' money wisely?
    America was caught off-guard on Sept. 11, but propelled by public 
anxiety, there were stunning advances in surveillance technology. Along 
with the technological increase came an influx of taxpayer dollars into 
homeland security--nearly $690 billion over a decade, by one estimate, 
not including the cost of the wars in Iraq and Afghanistan. [Source: NY 
Times]
    The current debate on budget sequestration and a sense that major 
attacks on the United States are unlikely may embolden many Republicans 
and Democrats to look at our enormous counterterrorism bureaucracy and 
ask themselves, ``Is the era of the open checkbook over?''
    We all know that the Obama administration is facing a decision over 
whether or not to scale back security spending. The most obvious 
solution may be to eliminate the least productive programs. As always, 
budget determination must be advised by reference to a National 
strategy.
    What we require is a more systematic, well-considered approach to 
security than the current DHS supplies. More important than the 
survival of DHS as an organization is to ensure that the majority of 
Americans understand that we are prone to attack by extremist 
organizations. This awareness will hopefully mean that when we are hit 
again, we don't ramp up our security culture and destroy our freedoms 
with ``overreaction.''
    The experts here from the GAO, CRS, and CSIS have already outlined 
the way forward in handling the abuse of taxpayers dollars. Last year, 
when I testified on this topic I singled out a few items to consider as 
objectives to save taxpayer dollars. I noted that the Department of 
Homeland Security (DHS) isn't the only agency with duplication 
problems. This is a Government-wide problem--but four Government 
Accountability Office (GAO) report items stand out:
    Homeland Security Grants.--The Department of Homeland Security 
needs better project information and coordination among four 
overlapping grant programs (current reform is underway with grant 
consolidation).
    Information Technology Investment Management.--The Office of 
Management and Budget, and the Departments of Defense and Energy need 
to address potentially duplicative information technology investments 
to avoid investing in unnecessary systems.
    Passenger Aviation Security Fees.--Options for adjusting the 
passenger aviation security fee could further offset billions of 
dollars in civil aviation security costs.
    Domestic Disaster Assistance.--The Federal Emergency Management 
Agency could reduce the costs to the Federal Government related to 
major disasters declared by the President by updating the principal 
indicator on which disaster funding decisions are based and better 
measuring a State's capacity to respond without Federal assistance, and 
by a clearer policy justification for engaging Federal assistance or 
not doing so.
    No matter how much money Washington spends, it will never be 
enough. In 2006, I found myself in the private sector and began the 
process for creating a blueprint based on my experience with the 
commission. One major goal the commission was to include localities in 
the National response. Mayors need to be ready at the local level since 
all response is local. I recommend that we adopt a blueprint for the 
private sector.
   national blueprint for secure communities (the first 72 hours are 
                               critical)
    Today, many American communities simply don't have the assets or 
financial resources to be fully prepared during the first 72 hours of 
crisis. Whether the threat comes from a natural disaster or a terrorist 
attack, many of our cities and towns are at risk. According to the 
Department of Homeland Security, America's vulnerability is a cause 
``for significant National concern.'' In addressing this concern, our 
communities must find ways to augment their existing public-sector 
resources by leveraging the assets and capabilities of citizens, 
businesses, and community organizations during the initial hours or 
days until help and reinforcement arrive. The National Blueprint for 
Secure Communities is intended to help fill this void.
    First response is always a local response. During the first 72 
hours of a crisis, the quality of first response will be measured in 
lives saved, property preserved, and the speed of community recovery. 
As a society, our confidence in our ability to respond to a disaster, 
whether natural or man-made, will profoundly affect how we approach the 
challenges of preserving a free society in an age of terrorism.
    The goal should be to seek community input through committees, the 
internet, and the Congress. The committees must be comprised of first 
responders, community leaders, private-sector representatives, local, 
State, and National officials.
    The subcommittees can be organized as such:
  <bullet> Response/Containment;
  <bullet> Intelligence/Situational Awareness;
  <bullet> Transportation/Logistics;
  <bullet> Public Health/Medical;
  <bullet> Legal/Intergovernmental;
  <bullet> Public Safety/Information;
  <bullet> Infrastructure/Economic;
  <bullet> Community/Citizen.
    Instead of waiting for a plan--each community can prepare right now 
and create a 10-point plan for their city to be responsive to any 
disaster. From the Federal point of view, States and localities will 
always be under pressure to reach for Federal grants and appropriations 
to fill local budget gaps. Federal spending must be made in accordance 
with a National strategic plan.
           history of gilmore commission before & after 9/11
    After the fall of the Berlin Wall, Americans and most of the 
civilized world looked ahead to the future with little fear--especially 
of global war. A transcript of a Jan. 26, 1996 Bill Clinton 
Presidential radio address delivered on a Saturday morning following 
his recently delivered state of the union address sums up where he and 
most of Americans were focused--Domestic Policy:

``These are the seven challenges I set forth Tuesday night--to 
strengthen our families, to renew our schools and expand educational 
opportunity, to help every American who's willing to work for it 
achieve economic security, to take our streets back from crime, to 
protect our environment, to reinvent our government so that it serves 
better and costs less, and to keep America the leading force for peace 
and freedom throughout the world. We will meet these challenges, not 
through big government. The era of big government is over, but we can't 
go back to a time when our citizens were just left to fend for 
themselves.''

Little did we know then that by 2003 a Republican President would sign 
a bipartisan bill creating another Government Cabinet agency called the 
``Department of Homeland Security.''
                   history of the gilmore commission
    From 1999 to 2003, I was proud to serve as chairman of the 
Congressional Advisory Panel to Assess the Capabilities for Domestic 
Response to Terrorism Involving Weapons Mass Destruction--the shortened 
name became known as ``The Gilmore Commission.'' To sum up what we did 
in those 5 years prior and after 9/11 is this: Our commission was 
focused on local responders. One Gilmore Commission member, Ray Downey, 
served as a representative from the New York City Fire Department. Ray, 
unfortunately, died serving the people of his city and Nation while 
responding and saving lives on September 11, 2001.
            congressional mandate for the gilmore commission
    The Advisory Panel was established by Section 1405 of the National 
Defense Authorization Act for Fiscal Year 1999, Public Law 105-261 
(H.R. 3616, 105th Congress, 2nd Session) (October 17, 1998). That Act 
directed the Advisory Panel to accomplish several specific tasks.
    It said: The panel shall----
    1. Assess Federal agency efforts to enhance domestic preparedness 
        for incidents involving weapons of mass destruction;
    2. Assess the progress of Federal training programs for local 
        emergency responses to incidents involving weapons of mass 
        destruction;
    3. Assess deficiencies in programs for response to incidents 
        involving weapons of mass destruction, including a review of 
        unfunded communications, equipment, and planning requirements, 
        and the needs of maritime regions;
    4. Recommend strategies for ensuring effective coordination with 
        respect to Federal agency weapons of mass destruction response 
        efforts, and for ensuring fully effective local response 
        capabilities for weapons of mass destruction incidents; and
    5. Assess the appropriate roles of State and local government in 
        funding effective local response capabilities.
    That Act required the Advisory Panel to report its findings, 
conclusions, and recommendations for improving Federal, State, and 
local domestic emergency preparedness to respond to incidents involving 
weapons of mass destruction to the President and the Congress three 
times during the course of the Advisory Panel's deliberations--on 
December 15 in 1999, 2000, and 2001. The Advisory Panel's tenure was 
extended for 2 years in accordance with Section 1514 of the National 
Defense Authorization Act for Fiscal Year 2002 (S. 1358, Public Law 
107-107, 107th Congress, First Session), which was signed into law by 
the President on December 28, 2001. By virtue of that legislation, the 
panel was required to submit two additional reports--one on December 
15, 2002, and one on December 15, 2003.
   advisory panel composition (a unique membership focused on first 
                              responders)
    Mister Chairman, please allow me to pay special tribute to the men 
and women who serve on our panel. This Advisory Panel is unique in one 
very important way. It is not the typical National ``blue ribbon'' 
panel, which in most cases historically have been composed almost 
exclusively of what I will refer to as ``Washington Insiders''--people 
who have spent most of their professional careers inside the Beltway. 
This panel has a sprinkling of that kind of experience--a former Member 
of Congress and Secretary of the Army, a former State Department 
Ambassador-at-Large for Counterterrorism, a former senior executive 
from the CIA and the FBI, a former senior member of the intelligence 
community, the former head of a National academy on public health, two 
retired flag-rank military officers, a former senior executive in a 
non-Governmental charitable organization, and the head of a National 
law enforcement foundation. But what truly makes this panel special 
and, therefore, causes its pronouncement to carry significantly more 
weight, is the contribution from the members of the panel from the rest 
of the country:
  <bullet> Three directors of State emergency management agencies, from 
        California, Iowa, and Indiana, two of whom now also serve their 
        Governors as Homeland Security Advisors;
  <bullet> The deputy director of a State homeland security agency;
  <bullet> A State epidemiologist and director of a State public health 
        agency;
  <bullet> A former city manager of a mid-size city;
  <bullet> The chief of police of a suburban city in a major 
        metropolitan area;
  <bullet> Senior professional and volunteer firefighters;
  <bullet> A senior emergency medical services officer of a major 
        metropolitan area;
  <bullet> And, of course--in the person of your witness--a former 
        State Governor.
    These are representatives of the true ``first responders''--those 
heroic men and women who put their lives on the line every day for the 
public health and safety of all Americans. Moreover, so many of these 
panel members are also National leaders in their professions: Our EMS 
member is a past president of the National association of emergency 
medical technicians; one of our emergency managers is the past 
president of her National association; our law officer now is president 
of the international association of chiefs of police; our 
epidemiologist is past president of her professional organization; one 
of our local firefighters is chair of the terrorism committee of the 
international association of fire chiefs; the other is chair of the 
prestigious National Interagency Board for Equipment Standardization 
and InterOperability.
    Those attacks continue to carry much poignancy for us, because of 
the direct loss to the panel. Ray Downey, department deputy chief and 
chief-in-charge of Special Operations Command, Fire Department of the 
City of New York, perished in the collapse of the second tower in the 
September 11 attack on the New York World Trade Center.
                             panel reports
    In the history of the Panel, we produced five advisory reports to 
the Congress and to the President of the United States. The first 
report in 1999 assessed threat. The second report in 2000 developed the 
fundamentals of a National strategy for combating terrorism.
    The third report, dedicated to Ray Downey who lost his life in the 
World Trade Center, filled out a National strategy in five key subject 
areas: State and local response capabilities, health and medical 
capabilities, immigration and border control, cybersecurity, and use of 
the military. Our fourth report in 2002, issued in the year following 
the 9/11 attacks, further made recommendations on how to marshal the 
National effort towards a National strategy. It paid special attention 
to the needs of intelligence sharing and the proper structure for 
counterterrorism activities inside the United States. Our last report 
was issued on December 15, 2003. That final report sought to express 
some end-vision and direction for the United States as it develops its 
National strategy and makes the country safer.
   fifth report (2003)--forging america's new normalcy: securing our 
                    homeland, preserving our liberty
    Mister Chairman, the Advisory Panel released its fifth and final 
report on December 15, 2003. In that report, the strategic vision, 
themes, and recommendations were motivated by the unanimous view of the 
panel that its final report should attempt to define a future state of 
security against terrorism--one that the panel has chosen to call 
``America's New Normalcy.''
    That strategic vision offered by the panel reflects the guiding 
principles that the panel has consistently enumerated throughout its 
reports:
  <bullet> It must be truly National in scope, not just Federal.
  <bullet> It should build on the existing emergency response system 
        within an all-hazards framework.
  <bullet> It should be fully resourced with priorities based on risk.
  <bullet> It should be based on measurable performance.
  <bullet> It should be truly comprehensive, encompassing the full 
        spectrum of awareness, prevention, preparedness, response, and 
        recovery against domestic and international threats against our 
        physical, economic, and societal well-being.
  <bullet> It should include psychological preparedness.
  <bullet> It should be institutionalized and sustained.
  <bullet> It should be responsive to requirements from and fully 
        coordinated with State and local officials and the private 
        sector as partners throughout the development, implementation, 
        and sustainment process.
  <bullet> It should include a clear process for strategic 
        communications and community involvement.
  <bullet> It must preserve civil liberties.
    In developing the report, panel members all agreed at the outset 
that it could not postulate, as part of its vision, a return to a pre-
September 11 ``normal.'' The threats from terrorism are now recognized 
to be a condition must face far into the future. It was the panel's 
firm intention to articulate a vision of the future that subjects 
terrorism to a logical place in the array of threats from other sources 
that the American people face every day--from natural diseases and 
other illnesses to crime and traffic and other accidents, to mention a 
few. The panel firmly believes that terrorism must be put in the 
context of the other risks we face, and that resources should be 
prioritized and allocated to that variety of risks in logical fashion.
    In 2004 our panel proffered a view of the future--5 years hence--
that it believes offers a reasonable, measurable, and attainable 
benchmark. It believes that, in the current absence of longer-term 
measurable goals, this benchmark can provide government at all levels, 
the private sector, and our citizens a set of objectives for readiness 
and preparedness. The panel did not claim that the objectives presented 
in this future view are all-encompassing. Neither do they necessarily 
reflect the full continuum of advances that America may accomplish or 
the successes that its enemies may realize in the next 5 years. The 
view is a snapshot in time for the purpose of guiding the actions of 
today and a roadmap for the future.
    The panel said that America's new normalcy by January of 2009 
should reflect:
  <bullet> Both the sustainment and further empowerment of individual 
        freedoms in the context of measurable advances that secure the 
        homeland.
  <bullet> Consistent commitment of resources that improve the ability 
        of all levels of government, the private sector, and our 
        citizens to prevent terrorist attacks and, if warranted, to 
        respond and recover effectively to the full range of threats 
        faced by the Nation.
  <bullet> A standardized and effective process for sharing information 
        and intelligence among all stakeholders--one built on moving 
        actionable information to the broadest possible audience 
        rapidly, and allowing for heightened security with minimal 
        undesirable economic and societal consequences.
  <bullet> Strong preparedness and readiness across State and local 
        government and the private sector with corresponding processes 
        that provide an enterprise-wide National capacity to plan, 
        equip, train, and exercise against measurable standards.
  <bullet> Clear definition about the roles, responsibilities, and 
        acceptable uses of the military domestically--that strengthens 
        the role of the National Guard and Federal Reserve Components 
        for any domestic mission and ensures that America's leaders 
        will never be confronted with competing choices of using the 
        military to respond to a domestic emergency versus the need to 
        project our strength globally to defeat those who would seek to 
        do us harm.
  <bullet> Clear processes for engaging academia, business, all levels 
        of government, and others in rapidly developing and 
        implementing research, development, and standards across 
        technology, public policy, and other areas needed to secure the 
        homeland--a process that focuses efforts on real versus 
        perceived needs. Well-understood and shared process, plans, and 
        incentives for protecting the Nation's critical infrastructures 
        of Government and in the private sector--a unified approach to 
        managing our risks.
    The panel's Future Vision back in 2009 included specific details 
involving:
  <bullet> State, Local, and Private-Sector Empowerment;
  <bullet> Intelligence;
  <bullet> Information Sharing;
  <bullet> Training, Exercising, Equipping, and Related Standards;
  <bullet> Enhanced Critical Infrastructure Protection;
  <bullet> Research and Development, and Related Standards;
  <bullet> Role of the Military.
    The GAO and DHS have prepared lengthy reports to enhance homeland 
security of our Nation and the Congress is doing its due diligence. 
Hearings like we are having today move forward the idea of making 
progress happen, but we must always consider the role of the military 
as we decide on our future homeland policy.
                             in conclusion
    Civil Liberties are the foundation of the Gilmore Commission. The 
panel addressed the on-going debate in the United States about the 
trade-offs between security and civil liberties. It concluded that 
history teaches, however, that the debate about finding the right 
``balance'' between security and civil liberties is misleading, that 
the traditional debate implies that security and liberty are competing 
values and are mutually exclusive. It assumes that our liberties make 
us vulnerable and if we will give up some of these liberties, at least 
temporarily, we will be more secure.
    It concluded that civil liberties and security are mutually 
reinforcing. The panel said that we must, therefore, evaluate each 
initiative along with the combined effect of all initiatives to combat 
terrorism in terms of how well they preserve all of the ``unalienable 
rights'' that the founders believed were essential to the strength and 
security of our Nation--rights that have become so embedded in our 
society and ingrained in our psyche that we must take special 
precautions, take extra steps, to ensure that we do not cross the line.

    Mr. Duncan. Thank you, Governor, for that fine testimony.
    The Chairman will now recognize Mr. Reese.

  STATEMENT OF SHAWN REESE, ANALYST, EMERGENCY MANAGEMENT AND 
    HOMELAND SECURITY POLICY, CONGRESSIONAL RESEARCH SERVICE

    Mr. Reese. Chairman Duncan, Ranking Member Barber, Members 
of the subcommittee, on behalf of the Congressional Research 
Service, I would like to thank you for the opportunity to 
appear before the subcommittee to discuss homeland security. 
CRS was asked specifically to discuss homeland security 
definitions and missions, and how multiple definitions within 
strategic documents affect the funding and risk-based 
prioritization of these missions.
    Many observers agree that a clear prioritization of 
National homeland security missions is needed, and a consensus 
definition is necessary to prioritize missions ranging, for 
example, from border security to counterterrorism to disaster 
assistance. My written statement addresses these issues in 
detail and discusses the absence of both a standard homeland 
security definition and a single National homeland security 
strategy, along with potential issues related to these matters. 
I will now briefly discuss these issues.
    Presently, homeland security is not funded using clearly-
defined National risk-based priorities. Arguably, these 
priorities need to be set and need to be clear in order for 
funding to be most effective. In August 2007, Congress enacted 
Implementing the 9/11 Commission Recommendations Act, which 
required DHS Secretary to conduct a quadrennial review of 
homeland security. This review was to be a comprehensive 
examination of the Nation's homeland security strategy, 
including recommendations regarding the long-term strategy and 
the Nation's priorities, and guidance on the programs, assets, 
capabilities, budget, policies, and authorities of the 
Department.
    Later, critics argued that the original 2010 version of the 
review did not meet these requirements. Currently, DHS is 
developing the 2014 Quadrennial Review. Now might be an ideal 
time to review the concept of homeland security, its 
definition, and how the concept and definition affect 
Congressional appropriations and the identification of 
priorities. However, more than 10 years after the 9/11 
terrorist attacks, policymakers continue to grapple with the 
definition and concept of homeland security.
    Today, there are numerous mission-specific strategies, such 
as the National Strategy for Global Supply Chain Security and 
the National Response Framework. However, today there is no 
single comprehensive National homeland security strategy. The 
concept of homeland security is evolving. One may even argue 
that it might be waning on a separate comprehensive policy 
concept. Evidence for this viewpoint can be found in the 
current administration's incorporation of the homeland security 
staff into the National security staff, and the inclusion of 
homeland security guidance in the 2010 National Security 
Strategy. There has not been a distinct National homeland 
security strategy since 2007. Additionally, the Office of 
Management and Budget has questioned the value of requiring 
Federal department and agencies to identify homeland security 
funding in their fiscal year 2014 budget request submissions.
    Three options stand out to address these issues. First, 
Congress could require a distinct National homeland security 
strategy, which would be similar to the Bush administration's 
2002 and 2007 strategy. Second, Congress could require a 
refinement of the National Security Strategy that could include 
succinct risk-based homeland security priorities. Finally, 
Congress may strictly focus on DHS activities. This option 
would entail DHS further refining its Quadrennial Review, which 
it is presently doing.
    In closing, multiple and competing definitions and missions 
may hamper Congressional authorization, appropriations, 
oversight functions, and may also restrict DHS and other 
Federal entities' ability to prioritize and execute homeland 
security missions. Failure to prioritize and execute homeland 
security missions based on risk may result in unintended 
consequences. I will conclude my testimony here, and once again 
thank you for the privilege to appear before you.
    [The prepared statement of Mr. Reese follows:]
                   Prepared Statement of Shawn Reese
                           February 15, 2013
                              introduction
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, on behalf of the Congressional Research Service I would 
like to thank you for this opportunity to appear before you to discuss 
National homeland security strategy, definitions, and priorities.
    The subcommittee requested that CRS discuss the implications of the 
absence of a Federal Government-wide National homeland security 
strategy, the use of multiple definitions of homeland security in 
National strategic documents, the lack of National homeland security 
priorities, and the funding of these priorities. This written statement 
is drawn largely from my CRS report Defining Homeland Security: 
Analysis and Congressional Considerations.
    Accordingly, my statement summarizes key portions of this report, 
and addresses key findings which include the absence of a consensus 
definition of homeland security and priorities. My statement concludes 
with an analysis of the potential consequences stemming from the lack 
of a consensus homeland security definition, the absence of homeland 
security priorities, and how this may affect the funding and execution 
of critical homeland security activities.
                 current homeland security environment
    Congress and policymakers are responsible for funding homeland 
security priorities. These priorities need to exist, to be clear and 
cogent, in order for funding to be most effective. Presently, as DHS 
itself has stated, homeland security is not funded on clearly-defined 
priorities. In an ideal scenario, there would be a clear definition of 
homeland security, and a consensus about it; as well as prioritized 
missions, goals, and activities. Policymakers could then use a process 
to incorporate feedback and respond to new facts and situations as they 
develop. However, more than 10 years after the 9/11 terrorist attacks, 
policymakers continue to grapple with the definition of homeland 
security. For example, the U.S. Government does not have a single 
definition for ``homeland security.'' Currently, different strategic 
documents and mission statements offer varying missions that are 
derived from different homeland security definitions.
    Historically, the strategic documents framing National homeland 
security policy have included National strategies produced by the White 
House and documents developed by the Department of Homeland Security 
(DHS). Prior to the 2010 National Security Strategy, the 2002 and 2007 
National Strategies for Homeland Security were the guiding documents 
produced by the White House. In 2011, the White House issued the 
National Strategy for Counterterrorism.
    In conjunction with these White House strategies, DHS has developed 
a series of evolving strategic documents that are based on the two 
National homeland security strategies and include the 2008 Strategic 
Plan--One Team, One Mission, Securing the Homeland; the 2010 
Quadrennial Homeland Security Review and Bottom-Up Review; and the 2012 
Department of Homeland Security Strategic Plan. The 2012 DHS strategic 
plan is the latest evolution in DHS's process of defining its mission, 
goals, and responsibilities. This plan, however, only addresses the 
Department's homeland security purview and is not a document that 
addresses homeland security missions and responsibilities that are 
shared across the Federal Government.
    Today, 30 Federal entities receive annual homeland security funding 
excluding the Department of Homeland Security (DHS). The Office of 
Management and Budget (OMB) estimates that 48% of annual homeland 
security funding is appropriated to these Federal entities, with the 
Department of Defense (DOD) receiving approximately 26% of total 
Federal homeland security funding. DHS receives approximately 52%.\1\
---------------------------------------------------------------------------
    \1\ U.S. Office of Management and Budget, Budget of the United 
States Government, Fiscal Year 2013: Analytical Perspectives, February 
2012, ``Appendix--Homeland Security Mission Funding by Agency and 
Budget Account,'' http://www.whitehouse.gov/sites/default/files/omb/
budget/fy2013/assets/homeland_supp.pdf.
---------------------------------------------------------------------------
    Currently, the Department of Homeland Security is developing the 
2014 Quadrennial Homeland Security Review (QHSR), which is scheduled to 
be issued in late 2013 or early 2014. Given the anticipated issuance of 
this latest QHSR, this might be an ideal time to review the concept of 
homeland security, the definition of the term ``homeland security,'' 
and how the concept and definition of homeland security affect 
Congressional appropriations and the identification of priorities as 
established by DHS and the administration.
           evolution of homeland security strategic documents
    The concept of homeland security is evolving. One may argue that it 
might even be waning as a separate policy concept. Evidence for this 
viewpoint can be found in the current administration's incorporation of 
the homeland security staff into the National security staff and the 
inclusion of homeland security priorities within the 2010 National 
Security Strategy. There has not been a National homeland security 
strategy since 2007. Additionally, the Office of Management and Budget 
(OMB) has announced that it will no longer require Federal departments 
and agencies to identify homeland security funding with their fiscal 
year 2014 budget request submissions.\2\
---------------------------------------------------------------------------
    \2\ http://www.performance.gov/sites/default/files/tmp/
_List_of_Reports_Required_by_- P_L%20_111-352.xls.
---------------------------------------------------------------------------
    The evolution of the homeland security concept has been 
communicated in several strategic documents. Today, strategic documents 
provide guidance to all involved Federal entities and include the 2010 
National Security Strategy and the 2011 National Strategy for 
Counterterrorism. There are also strategic documents that provide 
specific guidance to DHS entities and include the 2010 Quadrennial 
Homeland Security Review, the Bottom-Up Review, and the 2012 Department 
of Homeland Security Strategic Plan. Prior to issuance of these 
documents, National and DHS homeland security strategic documents 
included the 2002 and 2007 National Strategies for Homeland Security 
and the 2008 Department of Homeland Security Strategic Plan. All of 
these documents have varying definitions for ``homeland security'' and 
varying missions have been derived from these definitions.
    While the definitions and missions embodied in these strategic 
documents have commonalities, there are significant differences. 
Natural disasters are specifically identified as an integral part of 
homeland security in five of the seven documents, and only three 
documents--the 2008 and 2012 DHS Strategic Plans and the Bottom-Up 
Review--specifically include border and maritime security and 
immigration in their homeland security definitions. All of these 
mentioned issues are important and involve significant funding 
requests. However, the lack of consensus about the inclusion of these 
policy areas in a definition of homeland security may have negative or 
unproductive consequences for National homeland security operations. A 
consensus definition would be useful, but may not be sufficient. A 
clear prioritization of strategic missions would help focus and direct 
Federal entities' homeland security activities. Additionally, 
prioritization affects Congress's authorization, appropriation, and 
oversight activities. Ultimately, DHS' current efforts to design and 
issue the forthcoming QHSR may be important in the debate on homeland 
security strategy.
                  quadrennial homeland security review
``In August 2007, Congress enacted the Implementing 9/11 Commission 
Recommendations Act \3\ which required the DHS Secretary to conduct a 
quadrennial review of homeland security. This review was to be a 
comprehensive examination of the homeland security strategy of the 
Nation, including recommendations regarding the long-term strategy and 
priorities of the Nation for homeland security and guidance on the 
programs, assets, capabilities, budget, policies, and authorities of 
the Department.''\4\
---------------------------------------------------------------------------
    \3\ Pub. L. 110-53.
    \4\ 121 Stat. 544, 6 U.S.C. 347.
---------------------------------------------------------------------------
    Additionally, the DHS Secretary was to consult with the ``heads of 
other Federal agencies'' and:

``delineate and update, as appropriate, the national homeland security 
strategy, consistent with appropriate national and Departmental 
strategies, strategic plans, and Homeland Security Presidential 
Directives, including the National Strategy for Homeland Security, the 
National Response Plan, and the Department Security Strategic 
Plan.''\5\
---------------------------------------------------------------------------
    \5\ Ibid.

    These updates were to ``prioritize the full range of the critical 
homeland security mission areas of the Nation.''\6\ Many knowledgeable 
observers concluded that the 2010 Quadrennial Homeland Security Review 
did not accomplish these requirements. For example, David Maurer, 
Director of the Government Accountability Office's Homeland Security 
and Justice Team stated before the House Committee on Homeland 
Security's Subcommittee on Oversight, Investigations, and Management on 
February 3, 2013, that the 2010 QHSR identified five key DHS missions 
but did not prioritize them as required by the 9/11 Commission Act.\7\ 
Additionally, Alan Cohn, Deputy Assistant Secretary, Office of Policy, 
DHS, stated, in February 2012, that the Department was still in the 
process of aligning resources with priorities. However, that process 
was not completed for the 2010 QHSR.\8\
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ David Maurer, Government Accountability Office, statement 
before the House Homeland Security Committee, Subcommittee on 
Oversight, Investigations, and Management, ``Is DHS Effectively 
Implementing a Strategy to Counter Emerging Threats?'' hearing, 112th 
Cong., 2nd sess., Feb. 3, 2012.
    \8\ Alan Cohn, Department of Homeland Security, statement before 
the House Homeland Security Committee, Subcommittee on Oversight, 
Investigations, and Management, ``Is DHS Effectively Implementing a 
Strategy to Counter Emerging Threats?'' hearing, 112th Cong., 2nd 
sess., Feb. 3, 2012.
---------------------------------------------------------------------------
    The continued absence of homeland security priorities may be the 
result of competing or differing definitions of homeland security 
within National strategic documents and the evolving concept of 
homeland security. However, prior to 9/11 such entities as the Gilmore 
Commission \9\ and the United States Commission on National Security 
\10\ discussed the need to evolve the way National security policy was 
conceptualized due to the end of the Cold War and the rise of 
radicalized terrorism. After 9/11, policymakers concluded that a new 
approach was needed to address the large-scale terrorist attacks. A 
Presidential council and department were established, and a series of 
Presidential Directives were issued in the name of ``homeland 
security.'' These developments established that homeland security was a 
distinct, but undefined concept.\11\ Later, the Federal, State, and 
local government responses to disasters such as Hurricane Katrina 
expanded the concept of homeland security to include significant 
disasters, major public health emergencies, and other events that 
threaten the United States, its economy, the rule of law, and 
Government operations.\12\
---------------------------------------------------------------------------
    \9\ For information on the Gilmore Commission, see http://
www.rand.org/nsrd/terrpanel.html. The Gilmore Commission was 
established prior to 9/11; however, it released its fifth and final 
report in December 2003.
    \10\ For information on the U.S. Commission on National Security, 
see http://www.fas.org/irp/threat/nssg.pdf. The U.S. Commission on 
National Security was established in 1998 and issued its final report 
in February 2001. The commission did reference the idea of ``homeland 
security'' in early 2001.
    \11\ Harold C. Relyea, ``Homeland Security and Information,'' 
Government Information Quarterly, vol. 19, 2002, p. 219.
    \12\ Nadav Morag, ``Does Homeland Security Exist Outside the United 
States?,'' Homeland Security Affairs, vol. 7, September 2011, p. 1.
---------------------------------------------------------------------------
        definitions and missions as part of strategy development
    Definitions and missions are part of strategy development. 
Policymakers develop strategy by identifying National interests, 
prioritizing missions to achieve those National interests, and arraying 
instruments of National power to achieve National interests.\13\ 
Strategy is not developed within a vacuum. President Barack Obama's 
administration's 2010 National Security Strategy states that strategy 
is meant to recognize ``the world as it is'' and mold it into ``the 
world we seek.''\14\ Developing a homeland security strategy, however, 
may be complicated if the key concept of homeland security is not 
succinctly defined, and strategic missions are not aligned and 
synchronized among different strategic documents and Federal entities.
---------------------------------------------------------------------------
    \13\ Terry L. Deibel, Foreign Affairs Strategy: Logic for American 
Statecraft (New York: Cambridge University Press, 2007), p. 5.
    \14\ Executive Office of the President, National Security Strategy, 
Washington, DC, May 2010, p. 9.
---------------------------------------------------------------------------
                              definitions
    The following table provides examples of strategic documents and 
their specific homeland security definitions.

           TABLE 1.--SUMMARY OF HOMELAND SECURITY DEFINITIONS
------------------------------------------------------------------------
                Document                            Definition
------------------------------------------------------------------------
2007 National Strategy for Homeland      A concerted National effort to
 Security (White House).                  prevent terrorist attacks
                                          within the United States,
                                          reduce America's vulnerability
                                          to terrorism, and minimize the
                                          damage and recover from
                                          attacks that do occur.\1\
2008 U.S. Department of Homeland         A unified National effort to
 Security Strategic Plan, Fiscal Years    prevent and deter terrorist
 2008-2013 (DHS).                         attacks, protect and respond
                                          to hazards, and to secure the
                                          National borders.\2\
2010 National Security Strategy (White   A seamless coordination among
 House).                                  Federal, State, and local
                                          governments to prevent,
                                          protect against, and respond
                                          to threats and natural
                                          disasters.\3\
2010 Quadrennial Homeland Security       A concerted National effort to
 Review (DHS).                            ensure a homeland that is
                                          safe, secure, and resilient
                                          against terrorism and other
                                          hazards where American
                                          interests, aspirations, and
                                          ways of life can thrive.\4\
2010 Bottom-Up Review (DHS)............  Preventing terrorism,
                                          responding to and recovering
                                          from natural disasters,
                                          customs enforcement and
                                          collection of customs revenue,
                                          administration of legal
                                          immigration services, safety
                                          and stewardship of the
                                          Nation's waterways and marine
                                          transportation system, as well
                                          as other legacy missions of
                                          the various components of
                                          DHS.\5\
2011 National Strategy For               Defensive efforts to counter
 Counterterrorism (White House).          terrorist threats.\6\
2012 Strategic Plan (DHS)..............  Efforts to ensure a homeland
                                          that is safe, secure, and
                                          resilient against terrorism
                                          and other hazards.\7\
------------------------------------------------------------------------
\1\ Office of the President, Homeland Security Council, The National
  Homeland Security Strategy, Washington, DC, October 2007, p. 1.
\2\ U.S. Department of Homeland Security, One Team, One Mission,
  Securing the Homeland: U.S. Homeland Security Strategic Plan, Fiscal
  Years 2008-2013, Washington, DC, 2008, p. 3.
\3\ Office of the President, National Security Strategy, Washington, DC,
  May 2010, p. 2.
\4\ U.S. Department of Homeland Security, Quadrennial Homeland Security
  Review, Washington, DC, February 2010, p. 13.
\5\ U.S. Department of Homeland Security, Bottom-Up Review, Washington,
  DC, July 2010, p. 3.
\6\ Office of the President, National Strategy for Counterterrorism,
  Washington, DC, June 2011, p. 11.
\7\ U.S. Department of Homeland Security, Department of Homeland
  Security Strategic Plan: Fiscal Years 2012-2016, Washington, DC,
  February 2012, p. 2. This document does not explicitly state a
  definition for ``homeland security'' but it does define DHS's
  ``vision.''

    Some common themes among these definitions are:
  <bullet> The homeland security enterprise encompasses a Federal, 
        State, local, and Tribal government and private-sector approach 
        that requires coordination;
  <bullet> Homeland security can involve securing against and 
        responding to both hazard-specific and all-hazards threats; and
  <bullet> Homeland security activities do not imply total protection 
        or complete threat reduction.
    Each of these documents highlights the importance of coordinating 
homeland security missions and activities. However, individual Federal, 
State, local, and Tribal government efforts are not identified in the 
documents.
    The competing and varied definitions in these documents may 
indicate that there is no succinct homeland security concept. Without a 
succinct homeland security concept, policymakers and entities with 
homeland security responsibilities may not successfully coordinate or 
focus on the highest prioritized or most necessary activities. 
Coordination is especially essential to homeland security because of 
the multiple Federal agencies and the State and local partners with 
whom they interact. Coordination may be difficult if these entities do 
not operate with the same understanding of the homeland security 
concept. For example, definitions that don't specifically include 
immigration or natural disaster response and recovery may result in 
homeland security stakeholders and Federal entities not adequately 
resourcing and focusing on these activities. Additionally, an absence 
of a consensus definition may result in Congress funding a homeland 
security activity that DHS does not consider a priority. For example, 
Congress may appropriate funding for a counterterrorism program such as 
the State Homeland Security Grant Program when DHS may have identified 
an all-hazards grant program, such as Emergency Management Performance 
Grant Program, as a priority.
    It is, however, possible that a consensus definition and overall 
concept exists among policymakers and Federal entities, but that it 
isn't communicated in the strategic documents.\15\
---------------------------------------------------------------------------
    \15\ Examination of such a possibility is beyond the scope of this 
testimony.
---------------------------------------------------------------------------
    Finally, DHS Deputy Secretary Jane Lute stated that homeland 
security `` . . . is operation, it's transactional, it's decentralized, 
it's bottom-driven,'' and influenced by law enforcement, emergency 
management, and the political environment. Conversely, DHS Deputy 
Secretary Lute stated that National security `` . . . is strategic, 
it's centralized, it's top-driven,'' and influenced by the military and 
the intelligence community.\16\ Some see these comments as a reflection 
of a DHS attempt to establish a homeland security definition that is 
more operational than strategic and an illustration of the complexity 
of a common understanding of homeland security and its associated 
missions. Additionally, Congress has defined homeland security as:
---------------------------------------------------------------------------
    \16\ Christopher Bellavita, ``A new perspective on homeland 
security?'' Homeland Security Watch, December 20, 2011, http://
www.hlswatch.com/?2011/?12/?20/?a-new-perspective-on-homeland-security/
???.

    (11) Homeland security
    The term `homeland security' includes efforts----
    (A) to prevent terrorist attacks within the United States;
    (B) to reduce the vulnerability of the United States to terrorism;
    (C) to minimize damage from a terrorist attack in the United 
        States; and
    (D) to recover from a terrorist attack in the United States.\17\
---------------------------------------------------------------------------
    \17\ The Defense Production Act of 1950 as amended, sec. 722(11). 
This definition is exclusive ``for the purposes of this act.''
---------------------------------------------------------------------------
                            varied missions
    Varied homeland security definitions, in numerous documents, result 
in homeland security stakeholders identifying and executing varied 
strategic missions. Homeland security stakeholders include Federal 
departments and agencies, State and local governments, and non-profit 
and non-governmental organizations. The strategic documents mentioned 
earlier and listed in the CRS report identify numerous homeland 
security missions such as terrorism prevention; response and recovery; 
critical infrastructure protection and resilience; Federal, State, and 
local emergency management and preparedness; and border security. As 
noted earlier, none of these documents specifically tasks a Federal 
entity with the overall responsibility for homeland security. The 
following table summarizes the varied missions in these strategic 
documents.

        TABLE 2.--SUMMARY OF HOMELAND SECURITY MISSIONS AND GOALS
------------------------------------------------------------------------
                Document                        Missions and Goals
------------------------------------------------------------------------
2007 National Strategy for Homeland      <bullet> Prevent and disrupt
 Security (White House).                  terrorist attacks.
                                         <bullet> Protect the American
                                          people, critical
                                          infrastructure, and key
                                          resources.
                                         <bullet> Respond to and recover
                                          from incidents that do occur.
                                         <bullet> Strengthen the
                                          foundation to ensure long-term
                                          success.\1\
2008 U.S. Department of Homeland         <bullet> Protect the Nation
 Security Strategic Plan, Fiscal Years    from dangerous people.
 2008-2013 (DHS).                        <bullet> Protect the Nation
                                          from dangerous goods.
                                         <bullet> Protect critical
                                          infrastructure.
                                         <bullet> Strengthen the
                                          Nation's preparedness and
                                          emergency response
                                          capabilities.
                                         <bullet> Strengthen and unify
                                          the Department's operations
                                          and management.\2\
2010 National Security Strategy (White   <bullet> Strengthen National
 House).                                  capacity.
                                         <bullet> Ensure security and
                                          prosperity at home.
                                         <bullet> Secure cyberspace.
                                         <bullet> Ensure American
                                          economic prosperity.\3\
2010 Quadrennial Homeland Security       <bullet> Prevent terrorism and
 Review (DHS).                            enhance security.
                                         <bullet> Secure and manage our
                                          borders.
                                         <bullet> Enforce and administer
                                          our immigration laws.
                                         <bullet> Safeguard and secure
                                          cyberspace.
                                         <bullet> Ensure resilience to
                                          disasters.\4\
                                         <bullet> Provide essential
                                          support to National and
                                          economic security.\5\
2010 Bottom-Up Review (DHS)............  <bullet> Prevent terrorism and
                                          enhance security.
                                         <bullet> Secure and manage
                                          borders.
                                         <bullet> Enforce and manage
                                          immigration laws.
                                         <bullet> Safeguard and secure
                                          cyberspace.
                                         <bullet> Ensure resilience to
                                          disasters.
                                         <bullet> Improve Departmental
                                          management and
                                          accountability.\6\
2011 National Strategy for               <bullet> Protect the American
 Counterterrorism (White House).          people, homeland, and American
                                          interests.
                                         <bullet> Eliminate threats to
                                          the American people's,
                                          homeland's, and interests'
                                          physical safety.
                                         <bullet> Counter threats to
                                          global peace and security.
                                         <bullet> Promote and protect
                                          U.S. interests around the
                                          globe.\7\
2012 Strategic Plan (DHS)..............  <bullet> Preventing terrorism
                                          and enhancing security.
                                         <bullet> Securing and managing
                                          our borders.
                                         <bullet> Enforcing and
                                          administering our immigration
                                          laws.
                                         <bullet> Safeguarding and
                                          securing cyberspace.
                                         <bullet> Ensuring resilience to
                                          disasters.\8\
                                         <bullet> Providing essential
                                          support to National and
                                          economic security.\9\
------------------------------------------------------------------------
\1\ Office of the President, Homeland Security Council, National
  Strategy for Homeland Security, Washington, DC, October 2007, p. 1.
\2\ U.S. Department of Homeland Security, One Team, One Mission,
  Securing the Homeland: U.S. Homeland Security Strategic Plan, Fiscal
  Years 2008-2013, Washington, DC, 2008, p. 6-25.
\3\ Office of the President, National Security Strategy, Washington, DC,
  May 2010, p. 14.
\4\ U.S. Department of Homeland Security, Quadrennial Homeland Security
  Review, Washington, DC, February 2010, p. 2.
\5\ This mission of providing essential support to National and economic
  security was not part of the 2010 Quadrennial Homeland Security
  Review, but has been subsequently added as an additional mission. U.S.
  Government Accountability Office, Quadrennial Homeland Security
  Review: Enhanced Stakeholder Consultation and Use of Risk Information
  Could Strengthen Future Reviews, GAO-11-873, September 2011, p. 9.
\6\ U.S. Department of Homeland Security, Bottom-Up Review, Washington,
  DC, July 2010, pp. i-ii.
\7\ Office of the President, National Strategy for Counterterrorism,
  Washington, DC, June 2011, p. 8.
\8\ U.S. Department of Homeland Security, Department of Homeland
  Security Strategic Goal: Fiscal Years 2012-2016, Washington, DC,
  February 2012, pp. 3-18.
\9\ The 2012 Strategic Plan does not designate this as a specific
  mission, but it does state that ``DHS contributes in many ways to
  these elements to broader U.S. national and economic security while
  fulfilling its homeland security missions.'' U.S. Department of
  Homeland Security, Department of Homeland Security Strategic Goal:
  Fiscal Years 2012-2016, Washington, DC, February 2012, p. 19.

    These documents all identify specific missions as essential to 
securing the Nation. All of the documents state that the Nation's 
populace, critical infrastructure, and key resources need protection 
from terrorism and disasters. This protection from both terrorism and 
disasters is a key strategic homeland security mission. Some, but not 
all, of the documents include missions related to border security, 
immigration, the economy, and general resilience. Members of Congress 
and Congressional committees, however, have sometimes criticized these 
documents.
    Senator Susan Collins--current Ranking Member, Committee on 
Homeland Security and Governmental Affairs--expressed disappointment in 
the 2010 Quadrennial Homeland Security Review and 2010 Bottom-Up Review 
arguing that they did not communicate priorities and did not compare 
favorably to the most recent Quadrennial Defense Review.\18\ The 
Quadrennial Defense Review identifies National security and U.S. 
military priorities through a process `` . . . from objectives to 
capabilities and activities to resources.''\19\ Furthermore, the 
Quadrennial Homeland Security Review missions are different from the 
2007 National Strategy for Homeland Security\20\ missions, and neither 
identifies priorities, or resources, for DHS, or for other Federal 
agencies. Since the National Strategy for Homeland Security and the 
Quadrennial Homeland Security Review missions are differing and varied, 
and because the Quadrennial Homeland Security Review does not 
specifically identify a strategic process to achieve the missions, it 
could be assumed that this document was meant to be solely operational 
guidance. Additionally, some critics found the Bottom-Up Review lacking 
in detail and failing to meet its intended purpose.\21\ Further 
Congressional criticism included an observation on the absence of a 
single DHS strategy. At a House Homeland Security Committee's 
Subcommittee on Oversight, Investigations, and Management hearing, 
Chairman Michael McCaul stated that `` . . . DHS needs a single 
strategic document which subordinate agencies can follow and make sure 
the strategy is effectively and efficiently implemented. This single 
document should conform to the National Security Strategy of the United 
States of America. If the agencies do not have a clearly established 
list of priorities, it will be difficult to complete assigned 
missions.''\22\
---------------------------------------------------------------------------
    \18\ U.S. Congress, Senate Committee on Homeland Security and 
Governmental Affairs, Charting a Path Forward: The Homeland Security 
Department's Quadrennial Review and Bottom-Up Review, 111th Cong., 2nd 
sess., July 21, 2010.
    \19\ U.S. Department of Defense, Quadrennial Defense Review, 
Washington, DC, February 2010, p. iii.
    \20\ The 2007 National Strategy for Homeland Security is the most 
recent National strategy specifically on homeland security.
    \21\ Katherine McIntire Peters, ``DHS Bottom-Up Review is long on 
ambition, short on detail,'' GovernmentExecutive.com, July 2010.
    \22\ U.S. Congress, House Committee on Homeland Security, 
Subcommittee on Oversight, Investigations, and Management, ``Is DHS 
Effectively Implementing a Strategy to Counter Emerging Threats?'', 
112th Cong., 2nd sess., February 3, 2012.
---------------------------------------------------------------------------
        federal homeland security mission activities and funding
    The strategic homeland security documents provide Federal entities 
information on the National approach to homeland security. These 
documents are intended to identify Federal entity responsibilities in 
the area of homeland security and assist Federal entities in 
determining how to allocate Federal funding for that purpose. As 
mentioned earlier, in fiscal year 2012 30 Federal departments, 
agencies, and entities received annual homeland security funding 
excluding DHS. OMB estimates that 48% of annual homeland security 
funding is appropriated to these Federal entities, with DOD receiving 
approximately 26% of total Federal homeland security funding. DHS 
receives approximately 52%.
    In an effort to measure Federal homeland security funding, Congress 
required OMB to include a homeland security funding analysis in each 
Presidential budget.\23\ OMB requires Federal departments, agencies, 
and entities to provide budget request amounts based on the following 
six 2003 National Strategy for Homeland Security mission areas:
---------------------------------------------------------------------------
    \23\ Pub. L. 107-296 (Homeland Security Act of 2002), sec. 889.
---------------------------------------------------------------------------
  <bullet> Intelligence and Warning;
  <bullet> Border and Transportation Security;
  <bullet> Domestic Counterterrorism;
  <bullet> Protecting Critical Infrastructure and Key Assets;
  <bullet> Defending Against Catastrophic Threats; and
  <bullet> Emergency Preparedness and Response.\24\
---------------------------------------------------------------------------
    \24\ Office of Management and Budget, Circular No. A-11: 
Preparation, Submission, and Execution of the Budget, Instructions for 
Homeland Security Data Collection, Washington, DC, August 2011, http://
www.whitehouse.gov/sites/default/files/omb/assets/a11_current_year/
homeland.pdf.
---------------------------------------------------------------------------
    OMB, however, notes that the National Strategy for Homeland 
Security was revised in 2007, and that revision consolidated these six 
mission areas into three: (1) Prevent and disrupt terrorist attacks; 
(2) protect the American people, critical infrastructure, and key 
resources; and (3) respond to and recover from incidents that do occur. 
The strategy also states that these original 2003 mission areas are 
still used to ensure ``continuity and granularity.''\25\ OMB does not 
address President Obama administration's issuance of the 2010 National 
Security Strategy which supersedes the 2007 National Strategy for 
Homeland Security. It should be noted that OMB, in the fiscal year 2014 
budget request is not requesting Federal agencies to identify homeland 
security mission amounts in their submissions. This may further hamper 
the ability to track Federal funding for homeland security activities 
and restrict the ability to determine if funding aligns with National 
homeland security priorities. The following table shows the amount of 
funding provided for homeland security missions for fiscal year 2012 
and the amount requested for fiscal year 2013 by agency.
---------------------------------------------------------------------------
    \25\ Ibid.

 TABLE 3.--FISCAL YEAR 2012 APPROPRIATIONS AND FISCAL YEAR 2013 REQUEST FOR HOMELAND SECURITY MISSION FUNDING BY
                                                     AGENCY
                                    (Budget Authority in Millions of Dollars)
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal Year
                           Department                               Fiscal Year     Fiscal Year    2013 Request
                                                                   2012 Enacted    2013 Request    as % of Total
----------------------------------------------------------------------------------------------------------------
Agriculture.....................................................          $570.1          $551.4           0.80%
Commerce........................................................          $289.6          $304.1           0.44%
Defense.........................................................       $17,358.4       $17,955.1          26.05%
Education.......................................................           $30.9           $35.5           0.05%
Energy..........................................................        $1,923.3        $1,874.7           2.72%
Health and Human Services.......................................        $4,146.8        $4,112.2           5.97%
Homeland Security...............................................       $35,214.7       $35,533.7          51.57%
Housing and Urban Develop-  ment................................            $3.0            $3.0          \1\ --
Interior........................................................           $57.6           $56.7           0.08%
Justice.........................................................        $4,055.4        $3,992.8           5.79%
Labor...........................................................           $46.3           $36.6           0.05%
State...........................................................        $2,283.4        $2,353.8           3.42%
Transportation..................................................          $246.6          $243.3           0.35%
Treasury........................................................          $123.0          $121.1           0.18%
Veterans Affairs................................................          $394.5          $383.7           0.56%
Corps of Engineers..............................................           $35.5           $35.5           0.05%
Environmental Protection  Agency................................          $101.8          $102.6           0.15%
Executive Office of the President...............................           $10.4           $11.0           0.02%
General Services Administration.................................           $38.0           $59.0           0.09%
National Aeronautics and Space Administration...................          $228.9          $216.1           0.31%
National Science Foundation.....................................          $443.9          $425.9           0.62%
Office of Personnel Management..................................            $1.3            $0.6          \2\ --
Social Security Administration..................................          $234.3          $252.1           0.37%
District of Columbia............................................           $15.0           $25.0           0.04%
Federal Communications Commission...............................  ..............            $1.7          \3\ --
Intelligence Community Management Account.......................            $8.8              --              --
National Archives and Records Administration....................           $22.6           $22.5           0.03%
Nuclear Regulatory Commission...................................           $78.4           $76.6           0.11%
Securities and Exchange Commission..............................            $8.0            $8.0           0.01%
Smithsonian Institution.........................................           $97.0          $100.1           0.15%
U.S. Holocaust Memorial  Museum.................................           $11.0           $11.0           0.02%
                                                                 -----------------------------------------------
      Total.....................................................       $67,988.0   \4\ $68,905.2       \5\ 100%
----------------------------------------------------------------------------------------------------------------
Source: U.S. Office of Management and Budget, Budget of the United States Government, Fiscal Year 2013:
  Analytical Perspectives, February 2012, ``Appendix--Homeland Security Mission Funding by Agency and Budget
  Account,'' http://www.whitehouse.gov/?sites/?default/?files/?omb/?budget/?fy2013/?assets/?homeland_supp.pdf.
\1\ This amount is less than 0.01%.
\2\ This amount is less than 0.01%.
\3\ This amount is less than 0.01%.
\4\ The majority of this funding is categorized as protecting critical infrastructure and key assets.
\5\ Percentages in column may not equal 100 due to rounding.

    This allocation of Federal homeland security funding reveals that 
approximately 50% of Federal funding is not appropriated for DHS 
missions or activities. Additionally, it could mean that relying on 
detailed DHS strategies may be insufficient for developing a structured 
and coherent National homeland security, and that a coordinating and 
encompassing National homeland security definition may be important to 
prioritizing homeland security activities and funding.
    The 2010 National Security Strategy states that homeland security 
is ``a seamless coordination among Federal, State, and local 
governments to prevent, protect against, and respond to threats and 
natural disasters.''\26\ Homeland security requires coordination 
because numerous Federal, State, and local entities have responsibility 
for various homeland security activities. The proliferation of 
responsibilities entitled ``homeland security activities'' is due to a 
couple of factors. One factor is that homeland security developed from 
the pre-9/11 concept of law enforcement and emergency management. 
Another factor is the continuously evolving definition of ``homeland 
security.'' Some degree of evolution of the homeland security concept 
is expected. Policymakers respond to events and crises like terrorist 
attacks and natural disasters by using and adjusting strategies, plans, 
and operations. These strategies, plans, and operations also evolve to 
reflect changing priorities. The definition of homeland security 
evolves in accordance with the evolution of these strategies, plans, 
and operations.
---------------------------------------------------------------------------
    \26\ Office of the President, National Security Strategy, 
Washington, DC, May 2010, p. 2.
---------------------------------------------------------------------------
                      congressional considerations
    Policymakers are faced with a complex and detailed list of risks, 
or threats to security, for which they then attempt to plan. However, 
some have argued that managing those risks correctly 99% of the time 
may not be good enough when even a single failure may lead to 
significant human and financial costs.\27\ Homeland security is 
essentially about managing risks. The purpose of a strategic process is 
to develop missions to achieve that end. Before risk management can be 
accurate and adequate, policymakers ideally coordinate and communicate. 
That work to some degree depends on developing a foundation of common 
definitions of key terms and concepts. It is also necessary, in order 
to best coordinate and communicate, to ensure stakeholders are aware 
of, trained for, and prepared to meet assigned missions. At the 
National level, there does yet not appear to be alignment of homeland 
security definitions and missions among disparate Federal entities. DHS 
is, however, attempting to align its definition and missions, but does 
not prioritize its missions; there is clarity lacking in the National 
strategies of Federal, State, and local roles and responsibilities; 
and, potentially, some may argue that funding is driving priorities 
rather than priorities driving the funding.
---------------------------------------------------------------------------
    \27\ Donald F. Kettl, System Under Stress: Homeland Security and 
American Politics, 2nd ed., Washington, DC, CQPress, 2007, p. 82.
---------------------------------------------------------------------------
    DHS is aligning its definition and missions in the Quadrennial 
Homeland Security Review, the Bottom-Up Review, and the 2012 Strategic 
Plan; however, DHS does not prioritize the missions. DHS prioritizes 
specific goals, objectives, activities, and specific initiatives within 
the missions, and prioritizes initiatives across the missions. There is 
still no single National homeland security definition, nor is there a 
prioritization of National homeland security or DHS missions.
    There is no evidence in the existing homeland security strategic 
documents that supports the aligning and prioritization of the varied 
missions, nor do any of the documents appear to convey how National, 
State, or local resources are to be allocated to achieve these 
missions. Without prioritized resource allocation to align missions, 
proponents of prioritization of the Nation's homeland security 
activities and operations maintain that plans and responses may be 
haphazard and inconsistent. Another potential consequence of the 
absence of clear missions is that available funding then tends to 
govern the priorities.
    Congress may decide to address the issues associated with homeland 
security strategy, definitions, and missions, in light of the potential 
for significant events to occur similar to the 9/11 terrorist attacks 
and Hurricanes Katrina and Sandy. Many observers assert that these 
outstanding policy issues result from the varied definitions and 
missions identified in numerous National strategic documents. 
Additionally, they note that these documents do not consistently 
address risk mitigation associated with the full range of homeland 
security threats. From this perspective one piece missing from these 
documents, and their guidance, is a discussion of the resources and 
fiscal costs associated with preparing for low-risk, but high-
consequence threats.
    Specifically, Congress may choose to consider a number of options 
addressing the apparent lack of a consensus homeland security 
definition that prioritizes missions by requiring the development of a 
more succinct, and distinct, National homeland security strategy. One 
of these options might be to require a total rewrite of a National 
homeland security strategy. This option would be similar to the Bush 
administration's issuance of National homeland security strategies in 
2002 and 2007. Such a strategy could include a definitive listing of 
mission priorities based on an encompassing definition that not only 
includes DHS specific responsibilities, but all Federal department and 
agency responsibilities. A strategy that includes priorities could 
improve Congress's and other policymakers' ability to make choices 
between competing homeland security missions. This option would also be 
a departure from the current administration's practice of including 
National homeland security guidance in the National Security Strategy.
    Another option would be to build upon the current approach by 
requiring the administration to develop the National Security Strategy 
that succinctly identifies homeland security missions and priorities. 
Alternatively, Congress may determine that the present course of 
including National homeland security guidance in the National Security 
Strategy is adequate, and may focus strictly on DHS activities. This 
option would entail DHS further refining its Quadrennial Homeland 
Security Review which it has begun to do with its 2012 Strategic Plan 
and as it prepares the 2014 QHSR.
    It has been argued that homeland security, at its core, is about 
coordination because of the disparate stakeholders and risks.\28\ Many 
observers assert that homeland security is not only about coordination 
of resources and actions to counter risks; it is also about the 
coordination of the strategic process policymakers use in determining 
the risks, the stakeholders and their missions, and the prioritization 
of those missions.
---------------------------------------------------------------------------
    \28\ Ibid.
---------------------------------------------------------------------------
    Without a general consensus on the physical and philosophical 
definition and missions of homeland security, achieved through a 
strategic process, some believe that there will continue to be the 
potential for disjointed and disparate approaches to securing the 
Nation. From this perspective general consensus on the homeland 
security concept necessarily starts with a consensus definition and an 
accepted list of prioritized missions that are constantly reevaluated 
to meet risks of the new paradigm that is homeland security in the 21st 
Century. These varied definitions and missions, however, may be the 
result of a strategic process that has attempted to adjust Federal 
homeland security policy to continually emerging threats and risks.
    Thank you.

    Mr. Duncan. Thank you so much, Mr. Reese.
    The Chairman will now recognize Mr. Nelson to testify.

STATEMENT OF RICK ``OZZIE'' NELSON, VICE PRESIDENT FOR BUSINESS 
             DEVELOPMENT, CROSS MATCH TECHNOLOGIES

    Mr. Nelson. Good morning, Chairman Duncan, Ranking Member 
Barber, and distinguished Members of the subcommittee. Thank 
you for the opportunity to testify today. I want to note, while 
still affiliated with CSIS, I am now a vice president at Cross 
Match Technologies. I would like to take this time to discuss 
how the Department of Homeland Security, Congress, and the 
American people can work together to support DHS' continued 
evolution to a risk-based security model.
    Following 9/11, we created the Department of Homeland 
Security and gave it the mandate to protect all people from all 
things all the time. With this mandate came relatively robust 
Federal budgets. But times have changed. In order for DHS to 
continue to protect the homeland during the period of limited 
budgets, we as a Nation must accept this basic but vital fact 
that we cannot guarantee and cannot afford to provide absolute 
security. Instead, we must embrace an approach to protecting 
the Nation through risk-based security. This will require 
identifying where the greatest risks to our security are and 
allocating limited resources against those risks. DHS is moving 
in this direction, but it must be accelerated and done so with 
the support of Congress.
    In the past, we have not had the political will to 
implement such models given that they do carry with them an 
inherent degree of risk. Yet the silver lining in the current 
fiscal climate is that it has forced us to look past these 
political hurdles, presenting us with an opportunity to fully 
embrace a risk-based approach. My remarks will focus on two key 
areas where I believe further efficiency can be made. My 
written testimony includes a broader range of ideas and depths 
of analysis.
    First, in order to identify risk, DHS will need to continue 
its focus on information and intelligence sharing. A risk-based 
model of security is inherently driven by information and 
intelligence, which enables policymakers and analysts to make 
informed decisions where the risk is highest. This begins with 
DHS' network of fusion centers, which become all the more 
valuable as the Department transitions towards this model. 
Fusion centers serve as the primary point, the front door, if 
you wish, of interaction between the Federal Government and 
State and local centers and the private sector. While the 
current architecture and number of fusion centers may not be 
fully optimized, they will continue to play a valuable role in 
information sharing, and must not be abandoned. As such, DHS 
must take steps to ensure the increased controversy over how 
these centers are employed does not threaten their continued 
utility. The Department must accept that State and local 
entities will only be willing to continue to participate in 
fusion centers if they add value beyond counterterrorism, and 
must work to strike a balance between counterterrorism and an 
all-hazards mission.
    The second issue I want to discuss is screening and 
credentialing. DHS screens and credentials millions of 
individuals every day seeking to gain access from everything 
from air travel to computer systems. An effective and efficient 
means of screening and credentialing is vital to a risk-based 
security approach and would allow DHS to allocate its resources 
against those who potentially pose the greatest threat. 
However, responsibility for screening and credentialing is 
currently spread across multiple agencies within DHS. This 
diffused model is inefficient, and as demand rises and budgets 
fall will increasingly become untenable. For the Department's 
screening and credentialing services, the way ahead may lie 
with an enterprise approach. Integration of all DHS' databases 
should be accelerated, and programs like TSA's PreCheck and 
CBP's Global Entry should continue to be expanded to include a 
greater number of travelers from a variety of sources. Further, 
trusted travelers enrolled in one program should be provided an 
ID number or biometric profile that will be recognized across 
programs, greater increasing operability.
    By streamlining and screening credentialing, DHS can not 
only increase security, but save limited budget dollars. 
Secretary Napolitano recently stated a goal of having 50 
percent of travelers enrolled in a trusted traveler program 
within 2 years. This goal should be embraced and supported by 
Congress.
    In conclusion, moving to a risk-based model for security 
will not be without its challenges and will require that 
Congress, DHS, and the American people engage in an on-going 
dialogue about our priorities and the level of risk we are 
willing to accept. It is important to emphasize and to 
understand that no matter how well executed, any adoption of a 
risk-based model will inherently mean assuming some degree of 
risk. In implementing them, we must be willing to accept not 
only the risks, but the potential consequences, and that we 
cannot simply revert to trying to provide complete protection 
if and when there is an attack.
    Furthermore, it means accepting that while some mission 
areas will see increased resources, others may receive little 
or nothing. If we as a Nation are willing to accept these 
facts, a risk-based model for homeland security holds the 
potential to help reorient us towards tomorrow's threats even 
as budgets are tightened. Thank you again for the opportunity 
to testify.
    [The prepared statement of Mr. Nelson follows:]
              Prepared Statement of Rick ``Ozzie'' Nelson
                           February 15, 2013
    Since its creation a decade ago, the Department of Homeland 
Security (DHS) has been tasked with variety of missions but one primary 
focus; protecting the United States of America from al-Qaeda and its 
brand of Islamist terrorism. Following the horror of 9/11, we vowed to 
never again let such an attack take place on American soil, and so we 
created DHS and gave it the mandate to prevent any and all terrorism in 
the United States. For much of the last decade we were willing to 
largely maintain this approach, given the continued threat posed by al-
Qaeda and relatively robust Federal budgets. We didn't make hard 
choices regarding what was or wasn't working or where to focus our 
efforts and resources because we didn't need to and we thought we were 
safer in not doing so. However, in recent years our budgets have 
shrunk, and the threats we face have shifted. Times have changed, and 
DHS will, by necessity, need to change with them.
    In order for DHS to continue to protect the homeland during this 
period of limited budgets, we as a Nation will need to accept the basic 
but vital fact that we cannot guarantee and cannot afford to try to 
provide absolute security from all things for all people at all times. 
Instead, we must embrace an approach to protecting the Nation through 
risk-based security. This will require identifying where the greatest 
risks to our security are, and allocating limited resources against 
those risks. In doing so, we will allow DHS not only to better adapt to 
shrinking budgets by cutting spending on low-probability, low-
consequence threats, but increase our security by better utilizing 
available funds to prepare for those threats that pose the greatest 
risk and consequence. Risk-based models are not a new concept, and have 
been proposed in some form by every recent administration. However, in 
the past we simply have not had the political will to implement such 
models, given that they do carry with them an inherent degree of risk. 
Yet the silver lining of the current fiscal climate is that it has 
forced us to look past these political hurdles, presenting us with an 
opportunity to fully embrace a risk-based approach.
    The first step in the path towards implementing an effective risk-
based model for homeland security is recognizing the fact that al-
Qaeda, which has consumed our attention and the majority of our 
homeland security resources for the past decade, likely no longer 
constitutes the threat to the homeland that it once did. Al-Qaeda has 
been decimated by the death of bin Laden and dismantling of al-Qaeda 
core, and while recent events in West Africa have made clear that 
affiliated groups such as al-Qaeda in the Islamic Maghreb remain cause 
for concern, the threat of another terrorist attack in the United 
States approaching the scale of 9/11 has been vastly diminished. Yet 
even as the threat of al-Qaeda recedes, new challenges are emerging 
that will require shifts in the Department's resources and focus. As 
such, DHS will need to continue to find new efficiencies in its efforts 
to protect the United States by focusing on identifying emerging risks 
while refining its calculus regarding existing risks.
    In order to do so, DHS will need to continue to accelerate its 
focus on information and intelligence sharing. A risk-based model of 
security is inherently driven by information and intelligence, which 
enables policy-makers and analysts to make informed decisions on where 
risk is highest. Therefore, as DHS increasingly transitions to a risk-
based model, the concept of homeland security intelligence must be 
refined and the Department's role as the primary conduit for 
information sharing with State and local governments and the private 
sector must be further solidified. This begins with the network of 
fusion centers.
    Fusion centers, established since 9/11, will become all the more 
valuable as the Department transitions to a risk-based model. Fusion 
centers have a vital role to play in supporting information sharing, 
serving as the primary point of interaction between the Federal 
Government, the State and local entities most likely to witness 
suspicious terrorism-related activity, and private industry, which owns 
85% of the Nation's critical infrastructure. While the current 
architecture and number of fusion centers may not be fully optimized, 
they will continue to play a valuable role in information sharing, and 
must not be abandoned. As such, DHS must take steps to ensure that 
increased controversy over how these centers are employed does not 
threaten their continued utility. The Department and other Federal 
agencies must accept that State and local entities will only be willing 
to continue to participate in fusion centers if they add value beyond 
counterterrorism and must work together to strike a working balance 
between counterterrorism and all-hazards missions. The Department 
should also encourage State and local partners to participate in 
standardized intelligence training, in order to equip those on the 
ground with a better understanding of the intelligence process and 
equalize some of the disparities between various fusion centers. 
Additionally, the fusion centers need to find a means to better engage 
with the private sector. This includes not only finding new avenues for 
integrating information provided by the private sector, but keeping 
private companies and businesses informed of potential threats in a 
useful and timely manner while remaining cognizant of privacy and civil 
liberties concerns. Fusion centers have the potential to play a vital 
role in building a risk-based model of security but will be hampered in 
their mission unless the Department and its partners can come together 
to address these challenges.
    In addition to intelligence and information sharing, the effective 
screening and credentialing of individuals seeking access to everything 
from air travel to computer systems is vital to a risk-based approach. 
An effective, efficient means of screening and credentialing would 
allow DHS to allocate its resources against those who potentially pose 
the greatest threat. However, responsibility for screening and 
credentialing is currently spread across multiple agencies within DHS 
who employ multiple, unique systems. This diffuse model is inefficient 
and, as demand rises and budgets fall, will increasingly become 
untenable. For the Department's screening and credentialing services, 
which also rely on intelligence and information, the way ahead may lie 
with an enterprise approach. At present, the multitude of systems being 
utilized contributes to redundancies. Furthermore, without full 
integration, there is the danger that vital existing information in one 
system will be overlooked when making a decision based on information 
in a second system. Integration of all DHS databases should be 
accelerated so that all elements of the Department have as much 
information as possible regarding those they are screening and 
credentialing. Screening and credentialing processes also could benefit 
substantially from greater automation. The further introduction of 
automated processes could significantly reduce the time needed for many 
tasks associated with screening and credentialing, greatly improving 
efficiency. Programs like Transportation Security Administration's 
PreCheck and Customs and Border Protection's Global Entry should also 
be expanded to include a greater number of trusted travelers from a 
variety of sources. Further, trusted travelers enrolled in one program 
should be provided an ID number or biometric profile that would be 
recognized across programs, greatly increasing interoperability while 
decreasing the resources spent screening those who have already been 
screened by another program. By streamlining screening and 
credentialing, DHS can not only increase security, but save limited 
budget dollars. Secretary Napolitano recently stated a goal of having 
50% of travelers enrolled in a Trusted Traveler program within 2 years. 
This goal should be embraced and supported by Congress.
    Additionally, the Department should examine the creation of a 
Department-wide targeting center for the analysis of screening data 
from across DHS. While various component agencies maintain their own 
analytic targeting centers, no single agency has a complete picture of 
all the information residing in the Department's many screening and 
credentialing systems. A DHS-wide center could provide a more complete 
view, putting together pieces that other, smaller centers might miss, 
creating a more complete picture of the risks the Department must 
counter.
    Even as the Department attempts to focus on those areas that 
present the most risk, it must still seek to find efficiencies in areas 
where threats are relatively low but could be disproportionately 
costly, most notably with regards to chemical, biological, 
radiological, nuclear, and high explosive weapons (CBRNE). In recent 
years, the United States has built an extensive network of 
capabilities, program, and offices intended to detect and respond to 
these weapons, yet many of these are not well integrated with one 
another, leading to significant inefficiencies. Integration of all 
CBRNE research and development under one entity, such as DHS Office of 
Science and Technology (S&T), would be a logical first step and would 
reduce costly R&D redundancies. Additionally, the various components 
involved in CBRNE detection and response would greatly benefit from an 
integrated information sharing architecture as the National Information 
Exchange Model (NIEM) as well as integrated technologies that can 
quickly connect and share data between the various agencies and 
departments involved. This integration could well serve to both reduce 
costs and increase security in the long term by reducing duplication 
and increasing coordination.
    As DHS moves into its second decade, it will also face new threats 
and new risks beyond terrorism. One area where the risks are certainly 
growing, and which will require a series of new investments, is 
cybersecurity and operations. In addition to the threat posed to our 
critical infrastructure, General Keith Alexander, Commander of 
USCYBERCOM and director of the National Security Agency, recently noted 
that intellectual property theft represents ``the greatest transfer of 
wealth in history,'' leeching billions of dollars from the Nation's 
economy each year. As such, DHS will need to take a variety of steps to 
meet this new risk. One cybersecurity measure which would be relatively 
easy to implement would be for DHS to establish a basic training 
program for Federal employees across the U.S. Government instructing 
them on how to identify, understand, and report suspicious cyber 
activity. Such training would not only reduce the risk that a given 
employee would become the victim of a cyberattack, but by emphasizing 
reporting of attempted attacks, would increase the speed at which 
information regarding the attack could be disseminated, allowing 
Government and industry to identify the areas of greatest risk more 
quickly and move to prevent attacks on other systems before they can 
have an effect. While cyber education alone is far from sufficient to 
meet the threat, it would be a valuable and relatively cost-effective 
step in reducing the emerging risk of cyber attack.
    At times, risk-based security will necessitate significant long-
term investments in order to meet growing challenges, such as 
increasing activity in the Arctic. As Arctic sea ice recedes, opening 
the region to increased traffic, exploration, and territorial 
competition, the U.S. Coast Guard (USCG) will likely be stretched to 
the breaking point. In recent years, the Coast Guard has been operating 
at an increased operational tempo even as the vessels they rely upon 
have grown more and more outdated. The average age of a Coast Guard 
cutter is a worrying 43 years, yet in the past decade the USCG has been 
called upon for ever-expanding range of missions, running the gamut 
from protecting fisheries to guarding Iraqi oil platforms.\1\ 
Additionally, the number of icebreakers the USCG maintains, which are 
vital for Arctic operations, has dwindled to just two. At present, the 
USCG is expected to fulfill its growing number and range of missions 
with a shockingly small budget; in 2012 we spent more on the Afghan 
National Security Forces than we did on our own Coast Guard.\2\ As we 
examine areas in which the investment of our limited resources could 
have the most value, the Coast Guard is an obvious choice.
---------------------------------------------------------------------------
    \1\ ``United States Coast Guard 2012 Posture Statement'', February, 
2012, http://www.uscg.mil/posturestatement/docs/
uscg_2012_posture_statement.pdf.
    \2\ ``Justification for FY 2013 Overseas Contingency Operations 
Afghanistan Security Forces Fund (ASFF)'', Office of the Secretary of 
Defense, February 2012, http://asafm.army.mil/Documents/
OfficeDocuments/Budget/BudgetMaterials/FY13/OCO//asff.pdf.
---------------------------------------------------------------------------
    Moving to a risk-based model for security will not be without its 
challenges, and will require that Congress, DHS, and the American 
people engage in an on-going dialogue about our priorities and the 
level of risk we are willing to accept. It is important to emphasize 
and to understand that no matter how well executed, any adoption of a 
risk-based model will inherently mean assuming some degree of risk; in 
implementing them, we must be willing to accept not only the risks, but 
the potential consequences, and that we cannot simply revert to trying 
to provide complete protection if and when there is an attack. 
Furthermore, it means accepting that while some mission areas will see 
increased resources, others may receive little or nothing. If we as a 
Nation are willing to accept these facts, a risk-based model for 
homeland security holds the potential to help reorient us towards 
tomorrow's threats even as budgets are tightened.

    Mr. Duncan. Thank you so much for that testimony.
    The Chairman will now recognize Ms. Berrick to testify.

 STATEMENT OF CATHLEEN A. BERRICK, MANAGING DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Good morning, Chairman Duncan, Ranking Member 
Barber, and Members of the subcommittee. I am pleased to be 
here to discuss DHS' on-going efforts to build a unified 
Department and position itself for the future.
    When DHS began operations 10 years ago, GAO recognized that 
creating such a large and complex Department would take years 
to achieve. Since that time, we have conducted an extensive 
body of work at the Department, issuing over 1,300 products and 
making over 1,800 recommendations to strengthen their programs 
and operations. Our work has collectively shown that the 
Department has made significant progress across its range of 
missions. However, it is important to note that DHS is still 
maturing, more work remains, and there are several cross-
cutting themes that have affected their efforts thus far and 
need to be addressed moving forward.
    In terms of progress, DHS has developed strategic and 
operational plans, hired, deployed, and trained workforces, 
established new offices and programs, and issued policies and 
regulations to govern its operations. However, more work 
remains. Many of DHS' problems have come with a significant 
price tag. For example, we reported that DHS needs better 
information and coordination to prevent unnecessary duplication 
among four overlapping large grant programs that together 
accounted for over $20 billion in grants awarded from 2002 
through 2011. In another example, as was mentioned by 
Representative Barber this morning, DHS experienced schedule 
delays and performance shortfalls with its Secure Border 
Initiative program, resulting in its ultimate cancellation. DHS 
has also taken action to address a small percentage of 
individuals who have overstayed their visas.
    We reported that DHS could also reduce the costs to the 
Federal Government related to major disaster declarations by 
updating the principal indicator on which assistance decisions 
are based to better reflect the State's capability to respond 
to that disaster. Had the indicator been updated for inflation 
alone, about 25 percent fewer disasters may have been funded by 
the Federal Government between 2004 and 2011. Although the 
specific reasons for these and other challenges vary, we 
identified three common themes, based on our work, that have 
hindered the Department's progress, and should be addressed 
moving forward.
    First, DHS has made important strides in strengthening 
their management functions such as acquisition and IT in recent 
years. However, significant challenges remain that pose serious 
risks. For example, DHS' major acquisition programs continue to 
cost more than expected, take longer to deploy than planned, 
and deliver less capability than promised. We reported in 
September that 42 out of 70 major programs we reviewed at DHS 
experienced cost growth and schedule slippages or both. Sixteen 
of these programs accounted for $32 billion in cost overruns 
over a 3-year period, just 16 of those programs. The need to 
strengthen DHS' management functions is on GAO's high-risk list 
for this reason.
    Second, DHS has made important strides in providing 
leadership and coordinating efforts with its stakeholders, but 
needs to take additional action to strengthen partnerships in 
the sharing and utilization of terrorism and law enforcement 
information. GAO also designated information sharing as high-
risk throughout the Federal Government, including DHS. It has 
been on our high-risk list since 2005.
    Finally, limitations in strategic and program planning and 
limited assessments to inform approaches and investments have 
hindered the Department's efforts. DHS has also made progress 
in analyzing risks across sectors, but they have made less 
progress in actually incorporating that information into its 
planning and budgeting decision process.
    Given DHS' significant leadership role in homeland 
security, it is critical that its programs and operations are 
operating as efficiently and as effectively as possible, are 
sustainable, and continue to mature to address pressing 
security needs. In summary, nearly 10 years after DHS' 
creation, they have indeed made significant progress, but have 
yet to reach their full potential. Mr. Chairman, thank you for 
the opportunity to testify. I look forward to questions.
    [The prepared statement of Ms. Berrick follows:]
               Prepared Statement of Cathleen A. Berrick
                           February 15, 2013
                              gao-13-370t
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee: I am pleased to be here today to discuss our work on 
progress made by the Department of Homeland Security (DHS) and work 
remaining in implementing its homeland security missions since it began 
operations almost 10 years ago on March 1, 2003. This milestone 
provides an opportunity to reflect on the progress DHS has made since 
it began operating as a single department and the challenges it has 
faced in implementing its missions, as well as to identify issues that 
will be important for the Department to address as it moves forward, 
based on work we have completed on DHS programs and operations in key 
areas.
    Since DHS began operations, we have evaluated numerous Departmental 
programs and issued more than 1,300 reports and Congressional 
testimonies in areas such as border security and immigration, 
transportation security, and emergency management, among others. We 
have made approximately 1,800 recommendations to DHS designed to 
strengthen its operations. DHS has implemented more than 60 percent of 
these recommendations, has actions under way to address others, and has 
taken additional steps to strengthen its mission activities. However, 
the Department has more to do to ensure that it conducts its missions 
efficiently and effectively while simultaneously preparing to address 
future challenges that face the Department and the Nation.
    In 2003, we designated implementing and transforming DHS as high-
risk because DHS had to transform 22 agencies--several with major 
management challenges--into one department.\1\ Further, failure to 
effectively address DHS's management and mission risks could have 
serious consequences for U.S. National and economic security. Since 
2003, we have identified additional high-risk areas where DHS has 
primary or significant responsibilities, including protecting the 
Federal Government's information systems and the Nation's critical 
cyber infrastructure, establishing effective mechanisms for sharing and 
managing terrorism-related information to protect the homeland, and the 
National Flood Insurance Program.\2\
---------------------------------------------------------------------------
    \1\ GAO, High-Risk Series: An Update, GAO-03-119 (Washington, DC: 
January 2003).
    \2\ GAO, High-Risk Series: An Update, GAO-13-283 (Washington, DC: 
February 2013). The National Flood Insurance Program is a key component 
of the Federal Government's efforts to limit the damage and financial 
impact of floods.
---------------------------------------------------------------------------
    In September 2011, we issued a report summarizing progress made by 
DHS in implementing its homeland security missions 10 years after the 
terrorist attacks of September 11, 2001.\3\ We reported that DHS had 
implemented key homeland security operations and achieved important 
goals in many areas to create and strengthen a foundation to reach its 
potential. We also reported, however, that as DHS continues to mature, 
more work remains for it to strengthen the efficiency and effectiveness 
of those efforts to achieve its full potential.
---------------------------------------------------------------------------
    \3\ GAO, Department of Homeland Security: Progress Made and Work 
Remaining in Implementing Homeland Security Missions 10 Years after 9/
11, GAO-11-881 (Washington, DC: Sept. 7, 2011).
---------------------------------------------------------------------------
    My statement today is based on these and associated products, and 
addresses: (1) DHS's progress implementing and strengthening its 
mission functions, and (2) cross-cutting issues that have affected the 
Department's implementation efforts.
    For these past reports, among other things, we analyzed DHS 
documents; reviewed and updated our past reports, supplemented by DHS 
Office of Inspector General (IG) reports, issued since DHS began its 
operations in March 2003; and interviewed DHS officials. We conducted 
this work in accordance with generally accepted Government auditing 
standards. More detailed information on the scope and methodology from 
our previous work can be found within each specific report.
 dhs continues to implement and strengthen its mission functions, but 
            key operational and management challenges remain
Progress Implementing and Strengthening DHS's Mission Functions
    Since DHS began operations in March 2003, it has developed and 
implemented key policies, programs, and activities for implementing its 
homeland security missions and functions that have created and 
strengthened a foundation for achieving its potential as it continues 
to mature. We reported in our assessment of DHS's progress and 
challenges 10 years after the September 11 attacks, as well as in our 
more recent work, that the Department has implemented key homeland 
security operations and achieved important goals in many areas. These 
included developing strategic and operational plans across its range of 
missions; hiring, deploying, and training workforces; establishing new, 
or expanding existing, offices and programs; and developing and issuing 
policies, procedures, and regulations to govern its homeland security 
operations.\4\
---------------------------------------------------------------------------
    \4\ GAO-11-881.
---------------------------------------------------------------------------
    For example:
  <bullet> DHS successfully hired, trained, and deployed workforces, 
        including the Federal screening workforce to assume screening 
        responsibilities at airports Nation-wide, and about 20,000 
        agents to patrol U.S. land borders.
  <bullet> DHS also created new programs and offices, or expanded 
        existing ones, to implement key homeland security 
        responsibilities, such as establishing the National 
        Cybersecurity and Communications Integration Center to, among 
        other things, coordinate the Nation's efforts to prepare for, 
        prevent, and respond to cyber threats to systems and 
        communications networks.
  <bullet> DHS issued policies and procedures addressing, among other 
        things, the screening of passengers at airport checkpoints, 
        inspecting travelers seeking entry into the United States, and 
        assessing immigration benefit applications and processes for 
        detecting possible fraud.
  <bullet> DHS issued the National Response Framework, which outlines 
        disaster response guiding principles, including major roles and 
        responsibilities of Government, non-Governmental organizations, 
        and private-sector entities for response to disasters of all 
        sizes and causes.
  <bullet> After initial difficulty in fielding the program, DHS 
        developed and implemented Secure Flight, a passenger 
        prescreening program through which the Federal Government now 
        screens all passengers on all commercial flights to, from, and 
        within the United States.
  <bullet> In fiscal year 2011, DHS reported data indicating it had met 
        its interim goal to secure the land border with a decrease in 
        apprehensions. Our data analysis showed that apprehensions 
        decreased within each Southwest Border sector and by 68 percent 
        in the Tucson sector from fiscal years 2006 through 2011. 
        Border Patrol officials attributed this decrease in part to 
        changes in the U.S. economy and achievement of Border Patrol 
        strategic objectives.\5\
---------------------------------------------------------------------------
    \5\ GAO, Border Patrol: Key Elements of New Strategic Plan Not Yet 
in Place to Inform Border Security Status and Resource Needs, GAO-13-25 
(Washington, DC: Dec. 10, 2012). Border Patrol, within U.S. Customs and 
Border Protection, is the Federal agency with primary responsibility 
for securing the National borders between designated U.S. land border 
ports of entry.
---------------------------------------------------------------------------
  <bullet> We reported in September 2012 that DHS, through its 
        component agencies, particularly the Coast Guard and U.S. 
        Customs and Border Protection (CBP), has made substantial 
        progress in implementing various programs that, collectively, 
        have improved maritime security.\6\ For example, in November 
        2011, we reported that the Coast Guard's risk assessment model 
        generally met DHS criteria for being complete, reproducible, 
        documented, and defensible.\7\ Coast Guard units throughout the 
        country use this risk model to improve maritime domain 
        awareness and better assess security risks to key maritime 
        infrastructure.
---------------------------------------------------------------------------
    \6\ GAO, Maritime Security: Progress and Challenges 10 Years after 
the Maritime Transportation Security Act, GAO-12-1009T (Washington, DC: 
Sept. 11, 2012).
    \7\ GAO, Coast Guard: Security Risk Model Meets DHS Criteria, but 
More Training Could Enhance Its Use for Managing Programs and 
Operations, GAO-12-14 (Washington, DC: Nov. 17, 2011).
---------------------------------------------------------------------------
  <bullet> DHS has taken important actions to conduct voluntary 
        critical infrastructure and key resources (CIKR) security 
        surveys and vulnerability assessments, provide information to 
        CIKR stakeholders, and assess the effectiveness of security 
        surveys and vulnerability assessments.\8\
---------------------------------------------------------------------------
    \8\ GAO, Critical Infrastructure Protection: DHS Could Better 
Manage Security Surveys and Vulnerability Assessments, GAO-12-378 
(Washington, DC: May 31, 2012).
---------------------------------------------------------------------------
Challenges Implementing DHS's Missions
    DHS has made progress in implementing its homeland security 
missions, but more work remains for DHS to address gaps and weaknesses 
in its current operational and implementation efforts, and to 
strengthen the efficiency and effectiveness of those efforts to achieve 
its full potential. Our recent work has shown that many DHS programs 
and investments continue to experience cost overruns, schedule delays, 
and performance problems, and can be better coordinated to reduce 
overlap and the potential for unnecessary duplication, and achieve cost 
savings.\9\ For example:
---------------------------------------------------------------------------
    \9\ GAO, Department of Homeland Security: Actions Needed To Reduce 
Overlap and Potential Unnecessary Duplication, Achieve Cost Savings, 
and Strengthen Mission Functions, GAO-12-464T (Washington, DC: Mar. 8, 
2012).
---------------------------------------------------------------------------
  <bullet> DHS needs better project information and coordination to 
        identify and prevent potential unnecessary duplication among 
        four overlapping grant programs that in total constituted $20 
        billion in grants from fiscal years 2002 through 2011. We also 
        found that DHS has not implemented outcome-based performance 
        measures for any of the four programs, which hampers its 
        ability to fully assess the effectiveness of these grant 
        programs.\10\
---------------------------------------------------------------------------
    \10\ GAO, Homeland Security: DHS Needs Better Project Information 
and Coordination Among Four Overlapping Grant Programs, GAO-12-303 
(Washington, DC: Feb. 28, 2012).
---------------------------------------------------------------------------
  <bullet> DHS has not developed a process to identify and analyze 
        program risks in its Student and Exchange Visitor Program, such 
        as a process to evaluate prior and suspected cases of school 
        noncompliance and fraud. The program is intended to ensure that 
        foreign students studying in the United States comply with the 
        terms of their admission into the country and to certify 
        schools as authorized to accept foreign students in academic 
        and vocational programs. The program's budget authority in 
        fiscal year 2012 was $120 million.\11\
---------------------------------------------------------------------------
    \11\ GAO, Student and Exchange Visitor Program: DHS Needs to Assess 
Risks and Strengthen Oversight Functions, GAO-12-572 (Washington, DC: 
June 18, 2012).
---------------------------------------------------------------------------
  <bullet> DHS did not validate the science supporting the Screening of 
        Passengers by Observation Techniques program or determine if 
        behavior detection techniques could be successfully used across 
        the aviation system to detect threats before deploying the 
        program. The program has an annual cost of over $200 
        million.\12\ We are currently reviewing DHS's efforts to assess 
        the effectiveness of the program and ensure that behavior 
        detection officers are consistently implementing program 
        protocols, and we expect to report on the results of our work 
        later this year.
---------------------------------------------------------------------------
    \12\ GAO, Aviation Security: Efforts to Validate TSA's Passenger 
Screening Behavior Detection Program Underway, but Opportunities Exist 
to Strengthen Validation and Address Operational Challenges, GAO-10-763 
(Washington, DC: May 20, 2010).
---------------------------------------------------------------------------
  <bullet> DHS experienced schedule delays and performance problems 
        with its information technology program for securing the border 
        between ports of entry--the Secure Border Initiative Network 
        (SBInet)--which led to its cancellation after 5 years and about 
        $1 billion after deploying 53 miles of SBInet systems to the 
        Arizona border.\13\ DHS has adopted a new approach for 
        developing a technology plan for surveillance at the remainder 
        of the Arizona border, referred to as the Arizona Border 
        Surveillance Technology Plan (Plan), with an estimated life-
        cycle cost of $1.5 billion. To develop the Plan, DHS conducted 
        an analysis of alternatives and outreach to potential vendors, 
        and took other steps to test the viability of the current 
        system. However, DHS has not documented the analysis justifying 
        the specific types, quantities, and deployment locations of 
        border surveillance technologies proposed in the Plan, or 
        defined the mission benefits or developed performance metrics 
        to assess its implementation of the Plan. We are reviewing 
        DHS's efforts to implement the Plan, and we expect to report on 
        the results of our work later this year.
---------------------------------------------------------------------------
    \13\ GAO, Arizona Border Surveillance Technology: More Information 
on Plans and Costs Is Needed Before Proceeding, GAO-12-22 (Washington, 
DC: Nov. 4, 2011).
---------------------------------------------------------------------------
  <bullet> DHS spent more than $200 million on advanced spectroscopic 
        portals, used to detect smuggled nuclear or radiological 
        materials, without issuing an accurate analysis of both the 
        benefits and the costs--which we later estimated at over $2 
        billion--and a determination of whether additional detection 
        capabilities were worth the additional costs. DHS subsequently 
        canceled the advanced spectroscopic portals program as 
        originally conceived.\14\
---------------------------------------------------------------------------
    \14\ GAO-12-464T.
---------------------------------------------------------------------------
  <bullet> Each year DHS processes millions of applications and 
        petitions for more than 50 types of immigrant- and 
        nonimmigrant-related benefits for persons seeking to study, 
        work, visit, or live in the United States, and for persons 
        seeking to become U.S. citizens. DHS embarked on a major 
        initiative in 2005 to transform its current paper-based system 
        into an electronic account-based system that is to use 
        electronic adjudication and account-based case management 
        tools, including tools that are to allow applicants to apply 
        on-line for benefits. However, DHS did not consistently follow 
        the acquisition management approach outlined in its management 
        directives in developing and managing the program. The lack of 
        defined requirements, acquisition strategy, and associated cost 
        parameters contributed to program deployment delays of over 2 
        years. In addition, DHS estimates that through fiscal year 
        2011, it spent about $703 million, about $292 million more than 
        the original program baseline estimate.\15\
---------------------------------------------------------------------------
    \15\ GAO, Immigration Benefits: Consistent Adherence to DHS's 
Acquisition Policy Could Help Improve Transformation Program Outcomes, 
and GAO-12-66 (Washington, DC: Nov. 22, 2011).
---------------------------------------------------------------------------
  <bullet> We found that DHS could reduce the costs to the Federal 
        Government related to major disasters declared by the President 
        by updating the principal indicator on which disaster funding 
        decisions are based and better measuring a State's capacity to 
        respond without Federal assistance. From fiscal years 2004 
        through 2011, the President approved 539 major disaster 
        declarations at a cost of $78.7 billion.\16\
---------------------------------------------------------------------------
    \16\ GAO, Federal Disaster Assistance: Improved Criteria Needed to 
Assess a Jurisdiction's Capability to Respond and Recover on Its Own, 
GAO-12-838 (Washington, DC: Sept. 12, 2012). This total includes 
obligations made as of September 30, 2011, for major disasters declared 
from fiscal years 2004 through 2011.
---------------------------------------------------------------------------
 dhs can strengthen the efficiency and effectiveness of its operations 
 by continuing to address cross-cutting issues that have impacted its 
                                progress
    Our work on DHS's mission functions and cross-cutting issues has 
identified three key themes--leading and coordinating the homeland 
security enterprise, implementing and integrating management functions 
for results, and strategically managing risks and assessing homeland 
security efforts--that have impacted the Department's progress since it 
began operations.\17\ As these themes have contributed to challenges in 
the Department's management and operations, addressing them can result 
in increased efficiencies and effectiveness. For example, DHS can help 
reduce cost overruns and performance shortfalls by strengthening the 
management of its acquisitions, and reduce inefficiencies and costs for 
homeland security by improving its research and development (R&D) 
management. These themes provide insights that can inform DHS's efforts 
as it works to implement its missions within a dynamic and evolving 
homeland security environment. DHS made progress and has had successes 
in all of these areas, but our work found that these themes have been 
at the foundation of DHS's implementation challenges, and need to be 
addressed from a Department-wide perspective to effectively and 
efficiently position the Department for the future.
---------------------------------------------------------------------------
    \17\ DHS defines the homeland security enterprise as the Federal, 
State, local, Tribal, territorial, non-Governmental, and private-sector 
entities, as well as individuals, families, and communities, who share 
a common National interest in the safety and security of the United 
States and the American population.
---------------------------------------------------------------------------
Leading and Coordinating the Homeland Security Enterprise
    DHS is one of a number of entities with a role in securing the 
homeland and has significant leadership and coordination 
responsibilities for managing efforts across the homeland security 
enterprise. To satisfy these responsibilities, it is critically 
important that DHS develop, maintain, and leverage effective 
partnerships with its stakeholders while at the same time addressing 
DHS-specific responsibilities in satisfying its missions. DHS has made 
important strides in providing leadership and coordinating efforts 
across the homeland security enterprise, but needs to take additional 
actions to forge effective partnerships and strengthen the sharing and 
utilization of information. For example, DHS has improved coordination 
and clarified roles with State and local governments for emergency 
management. DHS also strengthened its partnerships and collaboration 
with foreign governments to coordinate and standardize security 
practices for aviation security. The Department has further 
demonstrated leadership by establishing a governance board to serve as 
the decision-making body for DHS information-sharing issues.\18\ The 
board has enhanced collaboration among DHS components and identified a 
list of key information-sharing initiatives.
---------------------------------------------------------------------------
    \18\ GAO, Information Sharing: DHS Has Demonstrated Leadership and 
Progress, but Additional Actions Could Help Sustain and Strengthen 
Efforts, GAO-12-809 (Washington, DC: Sept. 18, 2012). DHS has 
established a decision-making body--the Information Sharing and 
Safeguarding Governance Board--that demonstrates senior executive-level 
commitment to improving information sharing. The board has identified 
information-sharing gaps and developed a list of key initiatives to 
help address those gaps.
---------------------------------------------------------------------------
    Although DHS has made important progress, more work remains. We 
designated terrorism-related information sharing as high-risk in 2005 
because the Government faces significant challenges in analyzing and 
disseminating this information in a timely, accurate, and useful 
manner.\19\ In our most recent high-risk update, we reported that the 
Federal Government's leadership structure is committed to enhancing the 
sharing and management of terrorism-related information and has made 
significant progress defining a governance structure to implement the 
Information Sharing Environment--an approach that is intended to serve 
as an overarching solution to strengthening sharing.\20\ However, we 
also reported that the key departments and agencies responsible for 
information-sharing activities, including DHS, need to continue their 
efforts to share and manage terrorism-related information by, among 
other things, identifying technological capabilities and services that 
can be shared across departments and developing metrics that measure 
the performance of, and results achieved by, projects and activities. 
DHS officials explained that its information-sharing initiatives are 
integral to its mission activities and are funded through its 
components' respective budgets. However, in September 2012 we reported 
that five of DHS's top eight priority information-sharing initiatives 
faced funding shortfalls, and DHS had to delay or scale back at least 
four of them.\21\
---------------------------------------------------------------------------
    \19\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, DC: 
January 2005).
    \20\ GAO-13-283.
    \21\ GAO-12-809.
---------------------------------------------------------------------------
Implementing and Integrating Management Functions for Results
    Following its establishment, DHS focused its efforts primarily on 
implementing its various missions to meet pressing homeland security 
needs and threats, and less on creating and integrating a fully and 
effectively functioning department. As the Department matured, it has 
put into place management policies and processes and made a range of 
other enhancements to its management functions, which include 
acquisition, information technology, financial, and human capital 
management. However, DHS has not always effectively executed or 
integrated these functions.
    While challenges remain for DHS to address across its range of 
missions, the Department has made considerable progress in transforming 
its original component agencies into a single Cabinet-level department 
and positioning itself to achieve its full potential.
    Important strides have also been made in strengthening the 
Department's management functions and in integrating those functions 
across the Department, particularly in recent years. However, continued 
progress is needed in order to mitigate the risks that management 
weaknesses pose to mission accomplishment and the efficient and 
effective use of the Department's resources. In particular, the 
Department needs to demonstrate continued progress in implementing and 
strengthening key management initiatives and addressing corrective 
actions and outcomes that GAO identified, and DHS committed to taking 
actions address this high-risk area. For example:
  <bullet> Acquisition management.--Although DHS has made progress in 
        strengthening its acquisition function, most of the 
        Department's major acquisition programs continue to cost more 
        than expected, take longer to deploy than planned, or deliver 
        less capability than promised. We identified 42 programs that 
        experienced cost growth, schedule slips, or both, with 16 of 
        the programs' costs increasing from a total of $19.7 billion in 
        2008 to $52.2 billion in 2011--an aggregate increase of 166 
        percent. We reported in September 2012 that DHS leadership has 
        authorized and continued to invest in major acquisition 
        programs even though the vast majority of those programs lack 
        foundational documents demonstrating the knowledge needed to 
        help manage risks and measure performance.\22\ We recommended 
        that DHS modify acquisition policy to better reflect key 
        program and portfolio management practices and ensure 
        acquisition programs fully comply with DHS acquisition policy. 
        DHS concurred with our recommendations and reported taking 
        actions to address some of them.
---------------------------------------------------------------------------
    \22\ GAO, Homeland Security: DHS Requires More Disciplined 
Investment Management to Help Meet Mission Needs, GAO-12-833 
(Washington, DC: Sept. 18, 2012).
---------------------------------------------------------------------------
  <bullet> Information technology management.--DHS has defined and 
        begun to implement a vision for a tiered governance structure 
        intended to improve information technology (IT) program and 
        portfolio management, which is generally consistent with best 
        practices. However, the governance structure covers less than 
        20 percent (about 16 of 80) of DHS's major IT investments and 3 
        of its 13 portfolios, and the Department has not yet finalized 
        the policies and procedures associated with this structure. In 
        July 2012, we recommended that DHS finalize the policies and 
        procedures and continue to implement the structure. DHS agreed 
        with these recommendations and estimated it would address them 
        by September 2013.\23\
---------------------------------------------------------------------------
    \23\ GAO, Information Technology: DHS Needs to Further Define and 
Implement Its New Governance Process, GAO-12-818 (Washington, DC: July 
25, 2012).
---------------------------------------------------------------------------
  <bullet> Financial management.--DHS has, among other things, received 
        a qualified audit opinion on its fiscal year 2012 financial 
        statements.\24\ DHS is working to resolve the audit 
        qualification to obtain an unqualified opinion for fiscal year 
        2013.\25\ However, DHS components are currently in the early 
        planning stages of their financial systems modernization 
        efforts, and until these efforts are complete, their current 
        systems will continue to inadequately support effective 
        financial management, in part because of their lack of 
        substantial compliance with key Federal financial management 
        requirements. Without sound controls and systems, DHS faces 
        challenges in obtaining and sustaining audit opinions on its 
        financial statement and internal controls over financial 
        reporting, as well as ensuring its financial management systems 
        generate reliable, useful, and timely information for day-to-
        day decision making.
---------------------------------------------------------------------------
    \24\ A qualified opinion states that, except for the effects of the 
matter(s) to which the qualification relates, the audited financial 
statements present fairly, in all material respects, the financial 
position, results of operations, and cash flows of the entity in 
conformity with generally accepted accounting principles. DHS's 
auditors issued their audit qualification due to DHS's inability to 
support certain components of property, plant, and equipment and 
heritage and stewardship assets. DHS's complete set of financial 
statements consist of the Balance Sheet, Statement of Net Cost, 
Statement of Changes in Net Position, Statement of Budgetary Resources, 
and Statement of Custodial Activity.
    \25\ An unqualified opinion states that the audited financial 
statements present fairly, in all material respects, the financial 
position, results of operations, and cash flows of the entity in 
conformity with generally accepted accounting principles.
---------------------------------------------------------------------------
  <bullet> Human capital management.--In December 2012, we identified 
        several factors that have hampered DHS's strategic workforce 
        planning efforts and recommended, among other things, that DHS 
        identify and document additional performance measures to assess 
        workforce planning efforts.\26\ DHS agreed with these 
        recommendations and stated that it plans to take actions to 
        address them. In addition, DHS has made efforts to improve 
        employee morale, such as taking actions to determine the root 
        causes of morale problems. Despite these efforts, however, 
        Federal surveys have consistently found that DHS employees are 
        less satisfied with their jobs than the Government-wide 
        average.
---------------------------------------------------------------------------
    \26\ GAO, DHS Strategic Workforce Planning: Oversight of 
Department-wide Efforts Should Be Strengthened, GAO-13-65 (Washington, 
DC: Dec. 3, 2012).
---------------------------------------------------------------------------
    In September 2012, we recommended, among other things, that DHS 
improve its root cause analysis efforts of morale issues. DHS agreed 
with these recommendations and noted actions it plans to take to 
address them.\27\
---------------------------------------------------------------------------
    \27\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC: Sept. 28, 2012).
---------------------------------------------------------------------------
Strategically Managing Risks and Assessing Homeland Security Efforts
    Forming a new department while working to implement statutorily 
mandated and Department-initiated programs and responding to evolving 
threats, was, and is, a significant challenge facing DHS. Key threats, 
such as attempted attacks against the aviation sector, have impacted 
and altered DHS's approaches and investments, such as changes DHS made 
to its processes and technology investments for screening passengers 
and baggage at airports. It is understandable that these threats had to 
be addressed immediately as they arose. However, limited strategic and 
program planning by DHS, as well as assessment to inform approaches and 
investment decisions, has contributed to programs not meeting strategic 
needs or not doing so in an efficient manner.
    Further, DHS has made important progress in analyzing risk across 
sectors, but it has more work to do in using this information to inform 
planning and resource-allocation decisions. Risk management has been 
widely supported by Congress and DHS as a management approach for 
homeland security, enhancing the Department's ability to make informed 
decisions and prioritize resource investments. Since DHS does not have 
unlimited resources and cannot protect the Nation from every 
conceivable threat, it must make risk-informed decisions regarding its 
homeland security approaches and strategies. We reported in September 
2011 that using existing risk assessment tools could assist DHS in 
prioritizing its Quadrennial Homeland Security Review (QHSR) 
implementation mechanisms.\28\ For example, examining the extent to 
which risk information could be used to help prioritize implementation 
mechanisms for the next QHSR could help DHS determine how to 
incorporate and use such information to strengthen prioritization and 
resource allocation decisions. DHS officials plan to implement a 
National risk assessment in advance of the next QHSR, which DHS 
anticipates conducting in fiscal year 2013.
---------------------------------------------------------------------------
    \28\ GAO, Quadrennial Homeland Security Review: Enhanced 
Stakeholder Consultation and Use of Risk Information Could Strengthen 
Future Reviews, GAO-11-873 (Washington, DC: Sept. 15, 2011). The 
Quadrennial Homeland Security Review outlined a strategic framework for 
homeland security to guide the activities of homeland security 
partners, including Federal, State, local, and Tribal government 
agencies; the private sector; and nongovernmental organizations.
---------------------------------------------------------------------------
    Our work has also found that DHS continues to miss opportunities to 
optimize performance across its missions due to a lack of reliable 
performance information or assessment of existing information; 
evaluation among possible alternatives; and, as appropriate, adjustment 
of programs or operations that are not meeting mission needs. For 
example, we reported in February 2013 that the Government's strategy 
documents related to Information Systems and the Nation's Cyber 
Critical Infrastructure Protection included few milestones or 
performance measures, making it difficult to track progress in 
accomplishing stated goals and objectives.\29\ In addition, in 
September 2012, we reported that DHS had approved a third generation of 
BioWatch technology--to further enhance detection of certain pathogens 
in the air--without fully evaluating viable alternatives based on risk, 
costs, and benefits.\30\ As the Department further matures and seeks to 
optimize its operations, DHS will need to look beyond immediate 
requirements; assess programs' sustainability across the long term, 
particularly in light of constrained budgets; and evaluate trade-offs 
within and among programs across the homeland security enterprise. 
Doing so should better equip DHS to adapt and respond to new threats in 
a sustainable manner as it works to address existing ones.
---------------------------------------------------------------------------
    \29\ GAO-13-283.
    \30\ GAO, Biosurveillance: DHS Should Reevaluate Mission Need and 
Alternatives Before Proceeding with BioWatch Generation-3 Acquisition, 
GAO-12-810 (Washington, DC: Sept. 10, 2012).
---------------------------------------------------------------------------
                        concluding observations
    Given DHS's role and leadership responsibilities in securing the 
homeland, it is critical that the Department's programs and activities 
are operating as efficiently and effectively as possible; are 
sustainable; and continue to mature, evolve, and adapt to address 
pressing security needs. Since it began operations in 2003, DHS has 
implemented key homeland security operations and achieved important 
goals and milestones in many areas. DHS has also made important 
progress in strengthening partnerships with stakeholders, improving its 
management processes and sharing of information, and enhancing its risk 
management and performance measurement efforts. Important strides have 
also been made in strengthening the Department's management functions 
and in integrating those functions across the Department, particularly 
in recent years. Senior leaders at the Department have also continued 
to demonstrate strong commitment to addressing the Department's 
management challenges across the management functions. These 
accomplishments are especially noteworthy given that the Department has 
had to work to transform itself into a fully functioning Cabinet 
department while implementing its missions--a difficult undertaking for 
any organization and one that can take years to achieve even under less 
daunting circumstances.
    Impacting the Department's efforts have been a variety of factors 
and events, such as attempted terrorist attacks and natural disasters, 
as well as new responsibilities and authorities provided by Congress 
and the administration. These events collectively have forced DHS to 
continually reassess its priorities and reallocate resources as needed, 
and have impacted its continued integration and transformation. Given 
the nature of DHS's mission, the need to remain nimble and adaptable to 
respond to evolving threats, as well as to work to anticipate new ones, 
will not change and may become even more complex and challenging as 
domestic and world events unfold, particularly in light of reduced 
budgets and constrained resources. Our work has shown that to better 
position itself to address these challenges, DHS should place an 
increased emphasis on and take additional action in supporting and 
leveraging the homeland security enterprise; managing its operations to 
achieve needed results; and strategically planning for the future while 
assessing and adjusting, as needed, what exists today. DHS also needs 
to continue its efforts to address the associated high-risk areas that 
we have identified which have affected its implementation efforts. 
Addressing these issues will be critically important for the Department 
to strengthen its homeland security programs and operations. DHS has 
indeed made significant strides in protecting the homeland, but has yet 
to reach its full potential.
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions you may have at this time.

    Mr. Duncan. Thank you so much.
    Thank the witnesses for excellent testimony and providing 
your comments beforehand. The Chairman will now recognize 
himself for a question.
    Ten years. It is a tremendous opportunity for us to stop 
and look back at the effectiveness of the Department. Oversight 
to ensure that taxpayer dollars are spent effectively is an 
important part and important role of Congress. The protection 
of civil liberties is, in my opinion, just as important.
    With the passage of NDAA and the fear of indefinite 
detention among the American people, the talk of drone use over 
United States territory, and CISPA, SOPA, and Executive Orders 
on cyber-terrorism do concern Americans about their civil 
liberties and privacy. So, Governor Gilmore, your panel made 
the issue of civil liberties a cornerstone at the commission. 
Are you satisfied that the Department is evaluating each 
initiative and program in terms of how well they preserve our 
unalienable rights to make sure that they aren't crossing the 
line?
    Mr. Gilmore. No, Congressman, I am not. As I said in my 
opening remarks, my principal concern remains that without a 
thorough discussion of the nature of the threat and the 
preparedness of the United States to respond to it, there is an 
environment, a political environment that could in fact 
endanger and threaten the civil freedoms of the United States 
if all of a sudden the American people demand a response, that 
Congress feels that it must respond, and civil liberties could 
be the first thing that goes overboard.
    You mentioned the National Defense Authorization Act. I 
think it is a very legitimate concern. One of the principal 
focuses of our Advisory Panel--principal focuses--was whether 
or not and how you use the military, the uniformed military in 
the homeland. If you create a panic or a stress environment in 
the United States, there is a danger that the Executive branch 
will simply respond and use whatever resources are available to 
it without regard to the law or the restrictions such as Posse 
Comitatus, which is of course we know a doctrine that prohibits 
the use of military in the homeland. It was one of the five 
principal focuses of our Advisory Panel, our concern over this 
type of environment.
    The NDAA, the National Defense Authorization Act, in fact, 
in our view, does begin to move the military into a domestic 
responsibility and into a domestic function. This is not good. 
That is why the focus of our panel was to focus on local and 
State responders, as well as Federal law enforcement, so that 
nonmilitary people are in fact doing what is necessary to 
protect the homeland. So once again, as I close this answer, 
Congressman, I am concerned about exactly the issue that you 
point out.
    Mr. Duncan. Thank you for that. I share the concern as 
well. Just recently, the general assembly in my home State 
passed legislation to push back against NDAA. So we are 
watching that very closely.
    On Wednesday, the full committee had a hearing looking at a 
new perspective on the threats to the homeland. The Honorable 
David Walker, the founder and CEO of the Comeback America 
Initiative, spoke of the value of appointing a chief operating 
officer for the Department of Homeland Security. We met 
yesterday, he and I, and he elaborated that this position 
should have specific qualification requirements, a term of 5 to 
7 years, a performance contract, and be considered at level 2.
    Now, I realize that the Department of Defense has done 
something similar to that with its chief management official. 
Ms. Berrick, from a management angle, how effective do you 
think this type of model is for helping DHS improve in its 
leadership and implementation capabilities?
    Ms. Berrick. Thank you, Mr. Chairman. I think that can be 
effective. That is a suggestion that GAO made early in the 
Department's creation, having that central authority and 
visibility and continuity over the operations of the 
Department. However, I also think DHS' current structure, with 
their Under Secretary for Management, can be effective if that 
individual is given the authority and the resources to 
implement their position effectively.
    Now, recently, a few months ago, DHS actually issued a 
directive that strengthens the Under Secretary for Management's 
authority among the various DHS components. We think that is a 
very positive step in the right direction.
    So, in summary, I think both models can work. I think DHS 
as structured can achieve that same end, again, if the Under 
Secretary for Management is given the support and authority 
that he or she needs.
    Mr. Duncan. Okay. Thanks for that.
    Mr. Reese, just a final follow-up on that. You talked about 
Congress directing DHS initiatives through budgeting and other 
things. Do you think Congress should have more day-to-day--not 
to say day-to-day--but more hands-on input on how the money 
should be spent, directing DHS in certain areas?
    Mr. Reese. Well, sir, as you know, I work for Congressional 
Research Service, so I don't have an opinion. But there is an 
option that Congress could be involved in, through legislation 
possibly, requiring DHS to identify, either through mission-
focused and risk-based priorities, specifically within the 
Department, or Congress could look at cross-cutting and getting 
the whole of Government to discuss and prioritize missions. 
That is one way that would affect funding and appropriations, 
sir.
    Mr. Duncan. Thank you.
    The Chairman will now recognize Mr. Barber for his 
question.
    Mr. Barber. Thank you, Mr. Chairman.
    You know, as I think about how we spend or should spend 
public money, I think we should spend it like all of us do in 
our own households, with prudence and with care. But one more 
piece, of course, as public money is spent it has to be 
extremely accountable. That is an issue that I want to get to 
this morning.
    You know, I understand that we have made progress, Ms. 
Berrick, you spoke to that, in DHS 10 years later we are better 
than we were when we started, and hopefully can improve even 
more so in the years ahead. It is no small task. I acknowledge 
that the Secretary has taken on one of the most important and 
challenging tasks in the Federal Government, trying to bring 
together 22 agencies into an effective working organization. 
Back a long time ago I participated in the formation of an 
agency that brought together eight State agencies. That was in 
1974. It is still a work in progress. We can't afford to let 
that be a continued issue for the Department of Homeland 
Security.
    So, I want to ask a question, Mr. Nelson, if you could 
respond to this. According to the Partnership for Public 
Service, the Department is ranked 19th out of 19 among large 
Federal agencies on overall employee satisfaction. I have heard 
directly, as I meet with people back home, from our Border 
Patrol agents, particularly in the Tucson Sector, about 
examples of the problems with management and management 
priorities. For example, we have had six sector chiefs in 6 
years in the Tucson Sector. We have had concerns raised by the 
people who are on the ground, the men and women who protect our 
country, the Border Patrol agents, of inattention to 
priorities, beginning with the most basic employee needs. For 
example, I have been told that currently employees or agents 
are unable to purchase uniforms and boots that they need to 
report for duty. Additionally, I understand that our agents 
assigned to forward operating bases along the border have been 
charged with 24-hour staffing for up to a week at a time with 
no overtime or rest.
    So my questions are these. What impact do you think these 
policies and the dissatisfaction amongst our Border Patrol 
agents has on our security and the effectiveness of the 
administration of Departmental functions? What do you believe 
the Department can do to improve the leadership and management 
of the workforce?
    Mr. Nelson. Thank you, Mr. Ranking Member, for that 
question. DHS, in my opinion, in Washington, DC, is probably 
one of the most difficult places to work for a variety of 
reasons. One is the mandate we placed on them. We have to wake 
up every morning and, again, protect all people from all things 
all the time. They have zero margin for error. Additionally, no 
other Department, I would argue, interacts with the American 
people in such a personal level on a daily basis as does DHS, 
which makes their job, again, extraordinarily difficult.
    It is only, as we stated, 10 years into this. We didn't 
have, prior to September 11, we didn't really have a DHS 
workforce waiting to come into action after the creation. We 
had separate agencies operating independently, but we didn't 
have a unified Department. This dynamic over the last 10 years 
has taken its toll. But I do believe the Department has made 
significant strides in trying to create a Homeland Security 
personnel cadre to attend to those individuals, to have career 
paths for them, to do the best they can to meet their needs and 
demands. That is something they are going to have to continue. 
We have to have a homeland security workforce where individuals 
that are working at the Department are familiar with the 
agencies, and people that are working at the agencies are 
familiar with the Department.
    Again, the greater challenge for DHS is it is not just an 
internal issue. They also have to do this with the State and 
local governments, and they also have to do this with the 
private sector. So creating a workforce with such a broad 
mandate is going to take time, it is going to take some 
strategic investment. Thank you.
    Mr. Barber. Thank you for that answer. I remain concerned, 
as I think we all should, that employee morale is at such a low 
level. I understand the difficulty of bringing together 22 
agencies, silos that want to preserve their individual 
authority, but we must do better, particularly for those men 
and women who every day put on the uniform, go into rugged 
territory to protect our homeland, and who really I think 
deserve better.
    Let me ask you, if I could, quickly, Ms. Berrick, about 
another issue. Along with the Ranking Member of the Homeland 
Security Committee, Congressman Thompson, I recently requested 
a GAO review of the border resource deployment at the new 
Border Patrol strategic plan. The GAO report came out about a 
month ago. We had some public meetings on it in Arizona. What 
was really disappointing to me was that the results of that 
study showed that when the Department rolled out its strategic 
plan, its risk-based strategic plan, it had no goals, it had no 
metrics, it had no evaluation processes.
    As the Department has now accepted the GAO recommendations 
by November of this year to implement them, in your view what 
immediate steps should be taken to bring that about? Second, 
who should be at the table? Who should be asked about what 
should be the goals, what should be the risk management 
measurements and evaluation process before those changes or 
aspects of the plan are implemented?
    Ms. Berrick. Thank you. A couple of things. Yeah, it is 
critically important that DHS implement the strategic plan that 
they put in place last year. The reason goals and measures are 
important, because it is really how DHS is going to define 
security at the border. What ultimately are they shooting for 
in terms of ensuring security along the Southwest Border? Then, 
along with that, do they have the resources that they need to 
do that? What is the appropriate mix of resources?
    As you know, DHS used to have a measure for border security 
called operational control that they have stopped using since 
2011. But what that measure basically said was: How well are we 
doing protecting the border, stopping the illegal traffic 
coming through the border and illegal goods coming over? DHS 
stopped using that measure and now they are just looking at 
apprehensions, which, you know, isn't as sophisticated a 
measure, it doesn't give a great picture of security. They are 
in the process of revising that to come up with a better 
measure, but it is going on 2 years now. That really needs to 
get resolved. Then, you know, coupled with that, they need to 
determine what the appropriate mix of resources they need to 
support that and achieve that goal.
    In terms of who they should bring at the table, they need 
to bring all the relevant stakeholders. You know, I think they 
should have agents that are on the ground that are dealing with 
this day in and day out, the stakeholders along the border, the 
other Federal agencies that play a role in this. As you 
mentioned, and as I mentioned in my opening statement, you 
know, the need for DHS to really forge effective partnerships 
and bring stakeholders in on these key decisions is really 
critical. I mean, Homeland Security as an enterprise, it is not 
just DHS. So to be successful they are going to have to bring 
those stakeholders in and get their input.
    Mr. Barber. Thank you, Ms. Berrick.
    Mr. Duncan. The gentleman's time has expired. The Chairman 
will now recognize the gentleman from Pennsylvania, Mr. 
Rothfus, for a question.
    Mr. Rothfus. Thank you, Mr. Chairman. Thank you to our 
panelists for the work you have done in preparing your 
testimony today.
    Just looking at the 10-year history of DHS and how we 
brought together the disparate agencies, have any of you given 
any consideration as to whether perhaps some of these agencies 
should be reorganized themselves? Would there be any merit to 
taking a look at ICE and CBP, putting them together? What I am 
looking at, wondering about is whether there might be a more 
efficient structure at the agency that frankly could help 
morale. Any of you. Just consideration of reorganization of the 
elements within the agency that would promote more efficiency 
and unity of mission.
    Ms. Berrick. Well, speaking on behalf of GAO's perspective 
and the work that we have done at DHS, I think that they could 
have been organized in a number of different ways. The decision 
was made to create and integrate these 22 components. They are 
10 years into it.
    I think DHS can be successful as organized, but there are 
some cross-cutting issues that they are going to need to 
address. One is the management of the Department, because that 
has a direct impact on their ability to implement their 
missions. You know, there is other cross-cutting issues that 
they need to address, strategic planning, you know, risk 
assessments.
    So, you know, I think, and perhaps this is more of a 
question as they were first being created, but I think today, 
looking at where they are, they can be successful as 
structured, but they are going to need to address these issues 
in order to be.
    Mr. Rothfus. Morale has been an issue at the agency since 
its creation, is that not true?
    Mr. Gilmore. Congressman, if I could, to respond to you 
very quickly, you are concerned about morale because of the 
identity of the Department. The Department came together as a 
whole group of already existing agencies, things as disparate 
as Border Control and Coast Guard and all of this. So they all 
had their own identities, and now all of a sudden they are 
being asked to take on new identities.
    Now we are 10 years into this, and certainly Ms. Berrick's 
report isn't all that optimistic about the way that it is being 
managed. We at the Advisory Panel focused our issue on the 
mission, and think that the committee should do that. The 
question is: Is the mission being performed successfully? If it 
is not, is that because we, in fact, have these disparate 
organizations and can they be reorganized in a better way? The 
real challenge that I see is that you spend so much time and 
money trying to integrate managerially that maybe the mission 
could be lost.
    Mr. Rothfus. Thank you.
    I yield back, Mr. Chairman.
    Mr. Duncan. The gentleman yields back. The Chairman will 
now recognize the gentleman from Texas, Mr. O'Rourke, for a 
question.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Governor Gilmore, you mentioned that one of the aims al-
Qaeda has in pursuing attacks against the United States is to 
destroy our economy. I represent much of El Paso, Texas. We 
have five ports of entry there through which pass $80 billion 
in trade annually, about 20 percent of all U.S.-Mexico trade. 
Right now we have bridge wait times for cargo that last up to 9 
hours, and it is becoming more cost-effective for some of the 
shippers in Ciudad Juarez to air freight cargo out of that 
location rather than cross it through those ports of entry.
    With the potential for sequester and the possibility that 
we may need to furlough or even cut positions when we are 
already understaffed at those ports of entry, can you or any of 
the other panelists address what that might do to our economy 
and how we might better prioritize those crossings? I remind 
everyone that more than 6 million jobs in this country are 
dependent on that cross-border trade.
    Mr. Gilmore. Congressman, it is a remarkable question about 
how one harmonizes the economic power of the United States with 
the challenge that we are seeing worldwide to that power by 
threatening the economy. The economic challenges that we are 
seeing are deliberately and strategically the goal of a group 
of adversaries that want to undo that.
    So I think that the mission that you are discussing is a 
good one to lay on the table, which is: How do we continue to 
have the commerce while at the same time we deal with this 
problem of the ingestion of illegal drugs, of illegal 
individuals, of illegal even arms and human trafficking? These 
are serious dangers on the Southern Border. I laid out in my 
opening remarks the fact that this needs to be a principal 
mission.
    Now, I think it is a legitimate question. Have we become 
so, not confused, but have we become so focused on the 
managerial questions, about how we deal with morale, about how 
we deal with the integration of all these disparate 
organizations, that we are not able to achieve the mission, 
which is to secure the economic strength and value of the 
United States? I think it is a legitimate inquiry.
    Mr. O'Rourke. One of the issues that you also touched on in 
your testimony and just mentioned again, so much of the focus 
at our ports of entry are legitimate crossings and the length 
of border in between those crossings is on interdicting drugs. 
I don't want to minimize the dangers that those drugs pose to 
our communities and to the most vulnerable within them, 
especially our children, but with 16 States that have already 
approved medicinal use of marijuana, two States that have 
essentially legalized it, it is clear the direction in which 
this country is moving regardless of how any of us feel about 
it.
    With that being said, and one recent report I read shows 
that 95 percent of the Border Patrol's resources as they are 
connected to pursuing this war on drugs are focused on 
marijuana, do any of you have any recommendations about how 
Congress can better respond to this and prioritize our 
resources to focus on those threats that I think we could all 
agree are a lot more existential in nature? Al-Qaeda, 
terrorists, human smuggling, those things that are true evils 
that we want to stop and prevent from entering this country.
    Ms. Berrick. Thank you. I do want to make a comment related 
to how to go about to do that. I want to kind of move back to 
the comment I made about the management of the Department. The 
reason, you know, management is so critical is because it 
enables DHS, it gives them the ability to do the things that 
you talk about to implement their mission and facilitate 
commerce while balancing that with security.
    Now, I will give you an example. DHS was developing a 
program called CAARS to detect shielded nuclear material in 
vehicles and in containers coming through our ports. This was a 
critical mission need that the Department identified, and they 
needed to field this program quickly, again balancing commerce 
with security. The problem was, as they were developing it they 
weren't getting stakeholders involved on what the requirements 
were, they weren't managing it with the rigor that they needed 
to. As a result, they ended up with a system that didn't even 
fit within primary inspection lanes.
    So that was a management issue that had a direct effect on 
DHS' ability to secure our borders. So it is critical. I think 
in making those tough decisions about balancing security with 
the flow of commerce, management is really central to that.
    Mr. Gilmore. Mr. Chairman, I know the time has almost 
expired, but if I may give a direct answer to the Congressman.
    Congressman, there will be no aid and comfort from me with 
respect to the legalization of any kind of drugs in the United 
States. As a former prosecutor and Attorney General, I think 
what is overlooked is the involuntary nature of the use of 
drugs. We think that as a libertarian kind of idea people 
should be able to do what they want to do and all that kind of 
thing. The truth is, people aren't doing what they really 
should do or ought to do or want to do. They are doing what 
they are being compelled to do, particularly with respect to 
narcotics. I think it is a danger to the United States, it 
needs to be focused on, and we have to have a more honest 
conversation with the American people about it.
    Mr. O'Rourke. Thank you.
    Mr. Duncan. The gentleman's time has expired. The Chairman 
will recognize the gentleman from North Carolina and the 
Chairman of the Transportation Subcommittee, Mr. Hudson, for a 
question.
    Mr. Hudson. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here today.
    Governor, it is always a pleasure to be with you, sir.
    Mr. Gilmore. Congressman.
    Mr. Hudson. I appreciate your comments about the 
legalization of drugs.
    My question today, though, is directed to Ms. Berrick. The 
Government Accountability Office does an excellent job annually 
reporting on Federal programs, agencies, and offices, 
initiatives which have duplicate goals and activities, and has 
issued key reports presenting opportunities to reduce potential 
Government duplication, achieve cost savings, help agencies 
become more effective.
    What has GAO identified as the key areas of duplication, 
overlap, and fragmentation in the Department of Homeland 
Security activities?
    Ms. Berrick. Thank you.
    Yes, GAO is mandated to issue a report annually on 
duplication, overlap, and fragmentation across the Federal 
Government. We have issued our first two reports. We will be 
issuing a third in April of this year.
    Related to DHS, we identified 17 areas of duplication, 
overlap, and fragmentation and the billions of dollars that we 
believe the Department should address. Some of this will 
require Congressional action. I will give you a couple of 
examples.
    One I mentioned in my opening statement, which is the 
coordination of grant programs. There are multiple grant 
programs that DHS administers that are going to overlapping 
individuals for overlapping purposes. That may be okay, but the 
Department needs to have visibility over where those grants are 
going. If, you know, an entity is getting multiple grants, that 
was by design, not by accident.
    So we believe the Department needs better coordination and 
visibility over the projects for these grant awards. There are 
also opportunities to streamline the grants so there are not so 
many out there. It will make it easier for the Department to 
manage.
    Another example I will give is related to Federal disaster 
assistance. When the President makes decisions about declaring 
a Federal disaster--and, of course, the Governor requests 
that--FEMA informs the President's decision by assessing the 
State's capability to respond. They base that assessment on 
basically a per capita income indicator of the State, and right 
now the indicator is $1.35. That figure was created in 1986. 
There wasn't a whole lot of analysis that went behind it, and 
it hasn't even been adjusted for inflation every year since.
    Had that indicator been adjusted to reflect increases in 
per capita income within the States, 44 percent of disasters 
declared over the roughly last 9-year period perhaps wouldn't 
have been funded by the Federal Government. Had that factor 
been adjusted for inflation alone, the percentage comes down to 
25 percent.
    So I think, you know, in the tough fiscal environment with 
reduced budgets that the Department is going to have to face, 
as the entire Federal Government is facing, they are really 
going to need to look for opportunities to streamline 
operations, be more cost-effective, and, you know, be more 
rigorous in how they make resource allocation decisions.
    Mr. Hudson. I think that is true across the spectrum in 
Government, but particularly in this case.
    What actions have you seen the Department of Homeland 
Security--that they have already taken, where they have been 
successful in doing some of this streamlining?
    Ms. Berrick. DHS did go through an internal effort to look 
for opportunities for cost savings, but it tended to focus on, 
you know, operational issues, you know, the way in which they 
were managing resources more internally within the Department. 
We think that they need to look more broadly at some of these 
tough issues.
    They are working on it. For example, DHS did submit to the 
Congress a proposal to streamline their grant programs, and I 
know that that is being discussed and considered. But our view 
is that they need to look at the higher-ticket dollar items 
like their grants, like Federal disaster declarations.
    We have highlighted in our past duplication and overlap 
reports, you know, other opportunities. For example, TSA funds 
the installation of in-line baggage screening systems at 
airports. They pick up 90 percent of the tab, and then the 
airports pick up 10 percent. We identify that TSA made a 
recommendation they should go back and relook at that cost 
share. Is that appropriate, given that the airports are getting 
some benefits out of these in-line systems? They are getting 
faster throughput through the airports, which benefits them.
    So we think those are the types of things that DHS should 
put more emphasis on.
    GAO is actually tracking DHS and the entire Federal 
Government's efforts to implement our recommendations coming 
out of these annual duplication and overlap reports. So we will 
continue to track and report on their progress in addressing 
those issues.
    Mr. Hudson. Thank you. I appreciate the good work you do.
    Mr. Chairman, I yield back.
    Mr. Duncan. I thank the gentleman for the fine questioning.
    The Chairman will now recognize Mr. Payne from New Jersey 
for a round.
    Mr. Payne. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for being here 
today.
    Ms. Berrick, is there a way we can coordinate our 
technology and communications at our ports so we can ensure all 
of our cargo is checked, this process is made more efficient, 
and ensure security?
    Ms. Berrick. Thank you.
    DHS does have a mandate to screen all cargo containers 
coming into the United States before they arrive in the United 
States, but they have had difficulty in addressing that. That 
is a massive problem.
    They have created a program called Secure Border--not 
Secure--Secure Freight Initiative, I believe, is the name of 
it, where they are deploying personnel oversees to try to 
ensure the screening of containers coming into the United 
States. But they have to get agreements with the host country. 
There is a big price tag associated with it. So they are really 
in the early stages.
    So what GAO has said, you know, given the challenges in 
doing this, DHS is really going to have to implement a risk-
based approach--you know, where are the highest-risk ports? 
What are the highest-risk containers?--and utilize the programs 
they have in place right now to assess risk to really target 
their resources where they can provide the most benefit. 
Because as has been said today, they can't secure everything--
--
    Mr. Payne. Right.
    Ms. Berrick [continuing]. And they are going to have to 
make some trade-offs in deciding what they can do.
    Mr. Payne. This is just a very important issue for my 
district, having the Port of Newark and also the Port of 
Elizabeth right next to--book-ending my district.
    Let me ask you also, it is my understanding that using 
private contractors can be more costly even though Federalized 
employees, much of the time, do the same job but are paid less. 
Would you agree that this leads to reduced morale? Would you 
agree that then we should move toward Federalizing these 
employees versus private contractors?
    Ms. Berrick. GAO has looked at this issue of the use of 
contractors throughout the Department of Homeland Security. A 
few years ago, DHS couldn't even identify how many contractors 
they had. There was a massive number of contractors within the 
Department.
    What we think is important for them to do right now is to 
determine what is the appropriate mix of Federal versus 
contractor personnel, now that they have done a lot of work to 
identify what contractors they have, to really think through, 
you know, what is an inherently Governmental function that 
should be performed by Government employees, you know, versus 
contractors. So I think that is, you know, step No. 1.
    Then, obviously, with that, they should consider the cost, 
what can be done more efficiently with contractors versus 
Federal employees. But first they need to know how many they 
have and then really think about what is inherently 
Governmental that should be kept within house.
    Mr. Payne. Okay. Well, I would think that bringing them in-
house, it would be able to control those costs more effectively 
than, as you say, than not even knowing how many contractors 
are involved. But thank you very much.
    I yield back.
    Mr. Duncan. The gentleman yields back.
    Now the Chairman will recognize the gentleman from the big 
sky country of Montana, Mr. Daines, for questioning.
    Mr. Daines. Thank you, Mr. Chairman.
    ``Big sky'' is right about Montana, and big. I notice some 
of my peers here represent districts and States that actually 
share borders here, either with Canada or with Mexico. In light 
of that, perhaps this might be for Ms. Berrick.
    I am very appreciative of the candid and thoughtful 
testimony this morning. It is refreshing.
    Have you looked at and found ways, substantive ways, 
perhaps we can spend less money and get more, actually, as it 
relates to border security, looking at your findings? It is a 
huge topic. It is a topic that I think we all see here in 
Washington is going to become, you know, front and center as it 
relates to border security.
    What could you share with us of ways we can perhaps get 
better value from the way we administer border security?
    Ms. Berrick. You know, I think the first thing DHS can do 
is to use a lot of the good risk information that they have 
generated and really build that into their decision-making. You 
know, recognize that they are not going to be able to secure 
everything 100 percent of the time, so what are the riskiest 
things, if you will, that they should be devoting their 
resources to? I think that is important.
    I think a second thing that is important is, when they 
decide that they need to implement a program to ensure security 
at the border or airports or elsewhere, really putting the 
rigor and the discipline into thinking through exactly what is 
the right alternative and then, once we make a decision, how do 
we go about procuring this?
    Oftentimes we have found that DHS hasn't done a great job 
looking at the alternatives, you know, weighing the pros and 
cons, and really putting the discipline into the process that 
they need to, you know, versus rushing with one solution that 
may not be the best alternative.
    Now, you know, of course we recognize that DHS has to work 
quickly to respond to threats as they evolve. You know, 
sometimes they may not have the luxury to do what I am 
suggesting. But looking at the Department overall, we think 
there have been a number of missed opportunities because they 
haven't really, you know, thought through and done that 
planning up front that ultimately would have benefited them. As 
a result, programs that they want to field, you know, sometimes 
aren't successful or it takes years longer to get them out than 
they had hoped.
    Mr. Daines. I have a follow-up question. When I look at the 
State of Montana, as an at-large Member, my district is my 
State. Montana is a State that in one corner you can place 
Washington, DC, the other corner, you can place Chicago. That 
is the size of the State of Montana. We share a Northern Border 
with Canada that is over 600 miles long.
    Perhaps just turning attention to the Northern Border and 
vulnerabilities there, are we putting enough emphasis on 
securing the Northern Border? We talk a lot about the Southern 
Border, and rightfully so. I recognize we live in a constrained 
environment financially. You have to stack-rank priorities and 
fund accordingly. But perhaps some comments on our Northern 
Border and vulnerabilities. Are we putting enough effort there?
    Ms. Berrick. Yeah, I think that more work is required at 
the Northern Border. I mentioned earlier that CBP used to have 
a measure called operational control of the border. They did 
that both for the Southwest Border and the Northern Border. The 
Southwest Border, in 2011 they were saying they had operational 
control of about 40 percent of the border. On the Northern 
Border, that is much lower; it was less than 10 percent at the 
time.
    It is a difficult border to secure. It has unique 
challenges. We think one thing DHS can do is really leverage 
partnerships along the border, create task forces, you know, 
try to employ risk-based decision-making.
    This is going to be a part of implementing their strategic 
plan. CBP issued this plan last year to identify the framework 
for how they are going to secure both the Southwest and 
Northern Border, but they haven't made a lot of progress in 
really moving forward with that plan and putting some meat 
around what is that going to mean in terms of programs and 
resources. So the Northern Border will be a critical aspect 
that they will have to think through as they move forward with 
that plan.
    Mr. Gilmore. Congressman, if I could----
    Mr. Daines. May I----
    Mr. Gilmore. Oh, I am sorry. If I could add something, the 
Northern Border is vast compared to the Southwest Border.
    Mr. Daines. Uh-huh.
    Mr. Gilmore. I spoke recently in Canada, and the Canadians 
are at pains to be--they are our most loyal allies and friends 
and, by the way, our biggest commercial partners in the United 
States of America. But sometimes they feel like that the United 
States neglects them in terms of our respect and cooperation. I 
think that those are diplomatic issues that we have to continue 
to focus on.
    I want to answer your question directly by saying that we 
need to spend more time thinking about intelligence sharing and 
making sure the CIA, FBI, Canadian officials, local law 
enforcement people all along the Northern Border are sharing 
information appropriately to recognize the risk and the danger. 
Because, otherwise, you end up patrolling thousands of miles of 
untracked area that it is impossible to do. As you know, 
Congressman, many of the towns are literally divided by the 
border.
    Mr. Daines. Correct. That is right. Thank you, Governor.
    Mr. Nelson. May I add to that?
    One thing I think it is important to note: The last 2 
years, there has been significant progress between DHS and the 
government of Canada, specifically on the Beyond the Border 
Action Plan. In fact, they just issued their implementation 
update recently, and Canada was down here briefing that.
    There has been a series of pilot programs, the U.S. Coast 
Guard Shiprider program. There have been efforts for domain 
awareness inside the Great Lakes. It has been, I think, one of 
the strengths of what the Department has done in international 
cooperation. The whole goal there is to have free trade--trade 
flow more freely along there.
    So, you know, Canada has now made a commitment they are 
going to fund some of these programs. They are waiting for the 
United States to kind of reciprocate on this end. So I think it 
is important not to forget the successes that we have seen over 
the last 2 years.
    Thank you.
    Mr. Daines. Well, thanks for those comments. I would just 
offer, too, I am looking forward to engaging--especially with 
constrained resources, it would be the citizens and local law 
enforcement, as well, that could work together in patrolling 
these vast miles of our Northern Border.
    Thank you. I yield back.
    Mr. Duncan. The gentleman's time has expired, but we do 
have time for a second round of questioning if Members would 
like do that and if the witnesses can endure.
    I want to thank Governor Gilmore for mentioning cooperation 
and intelligence sharing with our neighbors. I passed a bill, 
signed by the President, dealing with the Iranian threat in the 
Western Hemisphere, and a big portion of that is looking at how 
we are working with our neighbors in the Western Hemisphere--
that includes Canada but also our southern neighbors, as well--
to thwart any sort of threat to the homeland. I think that is a 
valuable thing.
    My question is: Coming from the private sector, you know, 
what I see out of Government is, a lot of times, they do not 
operate efficiently like we have to operate in the private 
sector. You either operate efficiently, you either are 
productive and profitable, or you go out of business, or 
someone else steps in that can do it better and takes the 
business away from you.
    So, Governor Gilmore, I want to ask: The private sector 
constantly finds efficiencies to ensure the most effective work 
processes. How can DHS better incorporate a business-model 
approach and leverage lessons learned from the private sector 
into the processes and the business of homeland security at 
large?
    Mr. Gilmore. Mr. Chairman, it always comes down, as I think 
there is a consistent theme with all the witnesses today, to 
the strategy, the planning, and the strategic mission. You have 
to assess that and then determine the best possible way to 
address that.
    Government is never going to be as efficient as, for 
example, private contractors. To return to Congressman Payne's 
comment a few minutes ago, back when we did our commission 
report, we actually initiated the notion of trusted shippers, 
so that you look and see from overseas who is bringing things 
in and then you can have confidence that those are going to be 
safe and secure, and then you focus on the more risk-based 
suspect containers. That, of course, means that your Government 
employees are in a position to concentrate their attention, as 
they so loyally do, on that type of mission.
    But at the end of the day, Congressman, the key is that you 
have to understand what your mission is and whether or not you 
can most efficiently employ your resources to do it. That 
requires, in my view, this Congress to oversee that, and I know 
that you are doing that this morning.
    Mr. Duncan. The word, or term, ``operational control'' has 
been used a lot since I have been in Congress, and no one has 
really been able to define to me what operational control truly 
is. So I will ask the panel, all four of you: What is 
operational control of our border, in your opinion?
    I will start with Ms. Berrick, and let's go back toward the 
Governor.
    Ms. Berrick.
    Ms. Berrick. When CBP used that measure a couple of years 
ago, there were a lot of different factors that went in to 
calculating it. It was apprehensions, turn-backs, estimated 
flow coming across the border. It was pretty sophisticated in 
how they went about approaching that. Currently, they are 
really just looking at apprehensions, which we don't feel is a 
great measure. It is an indicator, but we don't think it is a 
great measure for assessing control of the border.
    So my response is, I don't think CBP has a good definition 
of what operational control is today. They have been working on 
trying to come up with that definition. Now they are saying it 
may take until 2014 to come up with it. We think it is 
critical.
    We think CBP needs to be the ones to define it since they 
are managing the border. I am sure Congress will ask GAO to 
look at it once they do define it. But right now they just 
don't have a good measure for operational control.
    Mr. Duncan. Mr. Nelson.
    Mr. Nelson. I would measure it more along the terms of 
effectiveness: How effective are we being at achieving the 
mission? They have been effective at keeping terrorist attacks 
from happening in the United States, DHS has been. The 
effectiveness of the border, how you measure those, with 
apprehensions or whatever metric you use, is never fully going 
to capture that.
    I think it is also difficult to capture how effective you 
are when you are still dealing and struggling with issues about 
immigration reform, which I know is an issue that the Congress 
is taking on this year. But, again, how do you measure 
effectiveness when you don't know what the strategic guidance 
may be from Congress or from the President on these particular 
issues because we are still waiting to hear that? I think that 
will be important going forward.
    Mr. Duncan. All right.
    Mr. Reese.
    Mr. Reese. I think the discussion of--I first have to say, 
border security is not an issue that I specifically focus on at 
CRS. I think it is actually a good analogy when I was 
discussing this idea of what is homeland security. As we are 
talking and the very people--the very agency responsible for 
operational control are having a hard time defining it. We are 
using words like ``terrorism'' and ``immigration'' and 
``customs.''
    I think it comes back to this idea of, we don't have this 
concept yet. Or we have a concept, but it is according to who 
you speak to. Until we actually have the discussion like we are 
having now, we are going to continue to wonder what do words 
mean, what does operational control of the border mean? I don't 
have an answer for you, Congressman.
    Mr. Duncan. Governor.
    Mr. Gilmore. Well, you know, it is a term of art, and what, 
in fact, really does it mean? It is Government talking to 
itself about what it is trying to achieve.
    Operational control? I don't know if we have operational 
control or not. It is an incident of American sovereignty as to 
whether we have control over our borders or not. But at the end 
of the day, if we think that we are not bringing cocaine across 
the Southern Border, we are kidding ourselves. We know we are. 
Those routes and those methodologies can be used by potential 
terrorists if they decide to do a military operation against 
us. That is why it is so important.
    At the end of the day, though--I want to come back to this 
last theme--if we are going to have operational control over 
our borders, it is going to be because the people of the United 
States are engaged in this issue and understand when they 
participate in drug activity or other kinds of activity that 
they are enabling a lack of operational control over our 
borders. At the end of the day, homeland security is the job of 
every citizen of the United States, not just the Government.
    Mr. Duncan. Thank you for that.
    Before I turn it over to the Ranking Member, I will discuss 
a conversation he and I had just this week about ranchers in 
his district that are fearful to leave their children at home 
to go into town to buy a gallon of milk because of the folks 
that are coming across our border.
    So I think, when you talk about operational control, it 
needs to be to the point of safety and security of those 
ranchers in Arizona, Texas, New Mexico, California, feel safe 
to leave their children at home on their property.
    With that, I will yield to the Ranking Member for 
questioning.
    Mr. Barber. Thank you, Mr. Chairman. The point you just 
made is a point I would like to explore a little further, and 
my first question is for Ms. Berrick.
    You know, we talked earlier about the new strategic plan 
that is a risk-based plan that was rolled out last May, 
unfortunately without goals or measurements, evaluation 
processes, which is problematic, to say the least.
    When I think about border security and how you define it--
and it is a very elusive term--I think, as the Chairman just 
mentioned, that when I hear anecdotally from the ranchers--and 
I hear from them all the time on conference calls and other 
ways--that they are unsafe in their home, they don't feel that 
they can even go to the clothesline without being armed, to me 
that is an indication that at least where they live we don't 
have a secure border or a border that keeps them safe. So that 
is one way.
    But I am really interested in adding to the anecdotal 
information by having sound empirical information or data that 
lets us have both elements of an evaluation.
    As we think about this new risk-based strategic plan, I 
asked you earlier about who should be at the table. I agree, 
all the stakeholders should be at the table to define that. But 
what suggestions do you have of ways in which the Department 
can actually measure success using its new strategic plan, 
which is a risk-based plan?
    Ms. Berrick. You mentioned data. I think that is one point 
to make up front. Right now the sectors are collecting data in 
different ways, so it is very difficult for somebody to come in 
and look across the sectors and draw conclusions about security 
along the Southwest Border because the data is being collected 
in different ways. So I think that is important, and having DHS 
try to get a handle on that.
    You know, second, a part of their strategic plan--you know, 
we talked about the measures and the goals. Another part of the 
strategic plan that still has to be implemented is how they are 
going to leverage stakeholder relationships and how those are 
going to be developed and supported, related to security along 
the Southwest Border. So they still need to define exactly what 
that needs to look like and how they are going to implement it. 
So that is going to be really critical, as well.
    I think the third piece is what you mentioned, is they are 
going to have to make decisions--and obviously this is a policy 
call, as well, for the country--on, you know, what is security 
along the border. You know, first of all, define it. You know, 
to date, CBP, Border Patrol has been operating under the 
assumption of whatever resources they have. You know, they are 
putting them along the border. They are thinking, you know, 
based on the budget I have, this is what I can do, versus, you 
know, what is the end-state, what ultimately do we want for 
security along the Southwest Border, and do that in a risk-
based way.
    Once they have defined that, they need to have measures so 
that--and collect data in consistent ways so that they can 
objectively look at to what extent they are achieving that end. 
Right now I don't think it has been defined, and they don't 
have measures, and the data isn't great or consistently 
collected.
    Mr. Barber. Thank you. I would agree. I have heard that 
from many different people, that we have from sector to sector 
different ways of even collecting the same information or same 
ideas.
    Let me ask a question now, Governor Gilmore, of you. As we 
have discussed today and as you know, there have been numerous 
occasions where the Department has spent millions of dollars, 
actually wasted millions of dollars, on technology that doesn't 
achieve the intended security goal. As a former small-business 
owner myself, I, as was mentioned earlier, know that you have 
to spend your money wisely, you have to put it where it is 
going to make the most profit if you are in business. I think 
the Government needs to find ways to do the same.
    I have heard from a number of small-business owners that 
they have great ideas, and everyone has a great idea, but that 
the problem that they face is how to penetrate the bureaucracy 
at DHS to even get a hearing or consideration of their idea, 
particularly as it relates to new and innovative ways to 
improve security.
    What is your thinking, Governor, about how we can change 
that situation or that dynamic so that these good ideas can 
actually at least get a hearing?
    Mr. Gilmore. Well, I have never been able to do it.
    No, Congressman, it really comes, I think, down to 
administrative and Congressional demand that the mission itself 
be effectively carried out. Then I think there has to be a 
focus on oversight as to the best way to do that and whether 
the Department of Homeland Security is implementing it.
    So, to the extent that they go back to many of the usual 
suspects in the defense community, the question is: Are there 
better ideas that can in fact be incorporated? Can we find a 
new methodology to do that, other than the general contractor-
type of approach?
    As we know, the typical approach of the Government, 
particularly DHS, is to hire a big player. Then the really 
innovative small-business people you are talking about simply 
become bit players as subcontractors along there. The question 
is: Can we find a way to make sure that we are fully engaging 
the most innovative small-business people as they come up with 
new and innovative ideas? That is an administrative approach 
that I think the Congress could rightly demand.
    Mr. Barber. Thank you, Governor.
    Mr. Duncan. The Chairman now recognizes Mr. Daines for 
questioning.
    Mr. Daines. Going back to the--the title of this hearing is 
``Spending Tax Dollars Wisely.'' Like the Chairman and the 
Ranking Member--they are asking questions about value, and, 
like the Chairman, I spent 28 years in the private sector, 
where every dollar is scrutinized for return on investment.
    I want to move over to the issue of cybersecurity. I think 
it is another hot topic. How do we ensure we are going to get 
the most effective, you know, bang for the buck as it relates 
to spending dollars on cybersecurity?
    Because I think there is going to be more investment made 
there. I have only been here for 40-plus days, but I can see 
this town knows how to spend money, and I want to make sure we 
are getting good return on investment and value.
    So maybe that might be for Mr. Nelson.
    Mr. Nelson. Great. I thank you for the question.
    I think that DHS obviously has a huge role in this. I mean, 
it goes back to our information-sharing architecture, which is 
in place, for the most part. It is, now, how do we utilize 
that, utilizing, for example, the fusion centers?
    One of the things that we have to focus on when it comes to 
cyber, because it is such a sensitive thing, because the 
private sector obviously owns most of that infrastructure, is 
that flow of information has to be two ways. It can't just be 
that the Department is giving threat information to the 
corporations, to the companies. It has to be, as well, the 
companies have to be willing to share that threat information.
    That is one of the biggest challenges we are having right 
now due to liability issues and marketing issues, that some 
companies are afraid to share where they are being attacked, 
and they are being attacked. That is something I think the DHS 
is a relatively low-cost solution. How do we open up that flow 
of communication on what the threats are that we are actually 
facing?
    Another one is I think DHS as an institution should be the 
lead for the Federal Government on cybersecurity training. 
Someone has to do this. Every department has some sort of 
cybersecurity training. It is not congruent across Government. 
Give one department the mandate to do that, consolidate those 
resources, and let them set the baseline for how our Government 
employees should be trained.
    Thank you.
    Mr. Daines. Thank you.
    I yield back.
    Mr. Gilmore. If I could add, Congressman----
    Mr. Daines. Yes?
    Mr. Gilmore [continuing]. Yesterday, I discovered I left my 
cell phone charger in Richmond when I came back to Washington, 
and my phone went down. I felt completely disengaged and had to 
race over to my iPad to get back on-line again.
    The enemy understands that, with the more sophisticated 
economy that is now developing in the United States, that if 
they can disrupt our cyber abilities, they can disable our 
response abilities. That is certainly true in a terrorist 
situation.
    I ask this question: Do we have a unified American strategy 
for cybersecurity? I am aware that the Department of Defense 
has set up an entire Cyber Command. They are, by the way, 
completely unconnected to the Department of Homeland Security.
    The question, I guess, that one would repeat is: Do we have 
a unified approach in the United States Government to 
cybersecurity in this country and infrastructure protection? I 
think we probably don't, which means there is a danger of 
duplication or even confusion.
    Mr. Daines. Thank you.
    I have one more question, Mr. Chairman, if I could.
    I spent the last 12 years, actually, with a cloud computing 
company, a global company. We think about border security as 
this, you know, physical borders, lines we can see. Certainly 
in the area of cybersecurity now, it is the entire--it is the 
global challenge we face.
    Any comments, too, around how we can kind of unleash the 
private sector, who are--it is in their self-interest, 
certainly in their best interest, to ensure that we have, you 
know, hard networks and tight security. Any comments from the 
witnesses?
    Mr. Nelson. Again, it comes down to how--85 percent of the 
critical infrastructure is owned by the private sector. How do 
we enable DHS to work with those entities? How do we share that 
information? Should it be that we have DHS cyber experts 
embedded inside companies and companies embedded inside, you 
know, DHS to share that information? We have to make those 
relationships much more robust, and that is going to be the key 
going forward.
    Ms. Berrick. If I could just add, GAO has designated 
cybersecurity as a Government-wide high-risk area. We have 
experts who spend a lot of time looking at this issue across 
Government. They would be happy to come up, if you would like, 
and talk to you more about the work GAO has done, what we have 
recommended across Government.
    I mean, it is a massive problem. DHS has key 
responsibilities. You asked specifically about the private 
sector. They have set up a--they call it Computer Emergency 
Readiness Team that helps the private sector with their 
detection capabilities, and the private sector can report 
incidents through this center. That showed a significant uptick 
in issues.
    So it is, again, a massive problem. It is going to take a 
lot of work for DHS to address this. It is going to be a 
Federal Government-wide effort. Again, GAO would be happy to 
come up and talk to you in more detail if you would like.
    Mr. Daines. Thank you.
    Mr. Duncan. The gentleman's time----
    Mr. Daines. I yield back.
    Mr. Duncan. Thank you.
    I would just inform the Members that Chairman McCaul is 
planning to have a full committee hearing on cybersecurity 
sometime in the very near future. I know that the Chairman of 
the Subcommittee on Cybersecurity, Mr. Meehan, is very 
interested in a lot of the questions that you had today.
    So, with that, I will recognize Mr. O'Rourke from Texas for 
a question.
    Mr. O'Rourke. Mr. Nelson, you cited the Secretary's goal of 
getting 50 percent of travelers enrolled in a secure traveler 
program like the SENTRI program.
    Again, to use El Paso as an example, we have millions of 
border crossings every year. The Mexican nationals who are 
crossing north really keep our retail economy alive. They spend 
upwards of $2 billion a year in El Paso. You can imagine the 
thousands of jobs that are tied to that spending.
    Yet, right now, those Mexican nationals are waiting 3 and 4 
hours in auto lines and, I think more cruelly, in pedestrian 
lines. It can be 35 degrees and raining in El Paso right now. 
Folks are waiting 3 and 4 hours for the privilege of spending 
their hard-earned dollars in the El Paso economy. As I 
mentioned earlier, with the prospect of sequester, furloughing 
agents, it could get even worse.
    One additional example, the Paso del Norte Bridge in 
downtown El Paso, of the 11 potential lanes at peak travel 
times, according to a study conducted last year by Cambridge 
Systematics, only 5 of those are manned.
    So I really appreciate the goal. However, enrollment in--an 
application into the SENTRI program costs $122, which may not 
seem like a lot to some of us, but for the folks who are 
crossing that is not money that they ever have at any one given 
time, for many of them.
    Is there any wisdom in finding a way to cover that cost for 
the benefit of having those folks screened, having biometric 
scanning, reducing the labor at the point of border crossing, 
and obviously helping the economy of El Paso and the United 
States?
    Mr. Nelson. Thank you for that question. I appreciate that.
    As we talk a lot about the balance between privacy and 
security, there is obviously the critical balance and some 
would argue more critical disjuncture between trade and 
security. We have to provide a secure border, but we have to 
facilitate trade, not just with our partners up north but 
obviously with your district near El Paso.
    The good thing about technology is, over time, the price 
goes down. It does become more affordable. Again, as we have, 
as I am encouraging, an enterprise-wide, you know, approach to 
training, DHS can see cost savings. Using something like 
biometrics, which, you know, confirms someone's identity, 
allows an individual or allows DHS to spend time screening 
those individuals that are a great risk.
    Most of the people that are crossing that border coming 
into the United States want to go back to Mexico. So how do we 
get them in the system once, where we can expedite how they are 
crossing, they can add to the economy of El Paso, and then go 
back, and they are considered trusted. Then DHS can spend its 
time going after those that are trying to smuggle drugs or 
other illicit activities.
    So I think if they invest in this capability and pursue 
this, you will see a cost savings in terms of trade in those 
kinds of programs when they are paying for themselves.
    Mr. O'Rourke. For Governor Gilmore, again, I appreciate 
your comments in regards to how we better pursue the war on 
drugs, stop illegal and dangerous drugs from coming in to this 
country. But in the spirit of this panel and spending taxpayer 
dollars wisely, let me try to get at the solution that I hope 
to arrive at.
    You know, we are spending billions of dollars right now to 
interdict these drugs. By volume, marijuana is the largest. We 
have put up billions of dollars in walls. We have doubled the 
size of the Border Patrol. As the father of three young 
children, I am deeply concerned that marijuana is just as or 
even more available today, especially in middle schools, than 
it has been before.
    So, again, in the spirit of today's hearing, how do we 
spend that money more effectively, do a better job of 
interdicting and stopping those drugs from coming into our 
communities, and yet still meet all of the other threats that 
are posed at our international border crossings?
    Mr. Gilmore. Congressman, I have actually been to El Paso, 
and I appreciate your able representation of that community and 
your focus on their economic well-being. I appreciate the 
spirit of your remarks here today.
    I have put a lot of thought into the drug issue, and you 
can tell by my emphasis today that I am deeply concerned about 
this. I guess my answer to you is that I see the poisoning of 
young people, whether it is in El Paso or Chicago, as a threat 
to the National security. That is the way I define National 
security, as well as al-Qaeda and other potential attacks.
    We can also broadly address the threat of this country as 
natural disasters. We just saw the protestations of the New 
Yorkers the other day because of the hurricane up there.
    So here is the answer, I think. I think that the Congress 
should and this committee should put a lot of thinking into the 
definition, as my colleagues have said, of what homeland 
security is and then set its priority and then make a decision 
about where our limited funds are best spent.
    I, for one, believe that the enabling of any drug culture 
in this country is inimical to the interests of the United 
States. But I certainly acknowledge that you can pick and 
choose and make those decisions as to what the greatest threat 
to this country is and use your money accordingly.
    Mr. O'Rourke. Thank you.
    Mr. Duncan. Well, that concludes the first foray of this 
subcommittee into this hearing of the DHS after 10 years. I 
want to thank the witnesses for their valuable testimony and 
the Members for their questions and participation today.
    The Members of the committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. Pursuant to Committee Rule 7, the hearing 
record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 10:36 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Question From Chairman Jeff Duncan for James S. Gilmore, III
    Question. With the recent announcement by Immigration and Customs 
Enforcement (ICE) of the releasing of a large number of detained 
persons without the supposed knowledge of Secretary Napolitano or head 
ICE officials, what does this say about management of the Department? 
Please explain.
    Answer. Response was not received at the time of publication.
     Questions From Chairman Jeff Duncan for Rick ``Ozzie'' Nelson
    Question 1. With the recent announcement by Immigration and Customs 
Enforcement (ICE) of the releasing of a large number of detained 
persons without the supposed knowledge of Secretary Napolitano or head 
ICE officials, what does this say about management of the Department? 
Please explain.
    Answer. Response was not received at the time of publication.
    Question 2. For 10 years, the Department's Office of Inspector 
General has identified multiple employee integrity and corruption 
cases. How has the Department dealt with this major management issue in 
the past and what are your suggestions to the Department moving 
forward?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Jeff Duncan for Cathleen A. Berrick
    [Note.-- The responses are based on previously-issued GAO 
products.\1\]
---------------------------------------------------------------------------
    \1\ See GAO, DHS Strategic Workforce Planning: Oversight of 
Department-wide Efforts Should Be Strengthened, GAO-13-65 (Washington, 
DC: Dec. 3, 2012); Federal Emergency Management Agency: Workforce 
Planning and Training Could Be Enhanced by Incorporating Strategic 
Management Principles, GAO-12-487 (Washington, DC: Apr. 26, 2012); 
Homeland Security: DHS Requires More Disciplined Investment Management 
to Help Meet Mission Needs, GAO-12-833 (Washington, DC: Sept. 18, 
2012); DOD Civilian Workforce: Observations on DOD's Efforts to Plan 
for Civilian Workforce Requirements, GAO-12-962T (Washington, DC: July 
26, 2012); and Workforce Reductions: Downsizing Strategies Used in 
Select Organizations,  GAO/GGD-95-54 (Washington, DC: Mar. 13, 1995).
---------------------------------------------------------------------------
    Question 1. With over 225,000 people employed at DHS, a vast bulk 
of funding is allotted for human capital costs. Can the Department's 
workforce be streamlined to ensure that taxpayer dollars are spent on 
the Department's most essential programs?
    Answer. The Department of Homeland Security's (DHS) workforce of 
over 225,000 people supports the Department's multiple missions to 
prevent terrorism and enhance security, secure and manage the Nation's 
borders, enforce and administer immigration laws, safeguard and secure 
cyberspace, and ensure resilience from disasters. Given the critical 
nature of DHS's mission to protect the security and economy of our 
Nation, it is important for DHS to have the personnel needed with the 
right skills to accomplish these missions. Our work has shown that DHS 
needs to better align its strategic planning with programmatic goals 
and budgetary realities to develop long-term strategies for acquiring, 
developing, and retaining staff to achieve these goals.\2\ Strategic 
workforce planning that is integrated with broader organizational 
strategic planning is essential for ensuring that agencies have the 
talent, skill, and experience mix they need to cost-effectively execute 
their mission and program goals.
---------------------------------------------------------------------------
    \2\ GAO-13-65.
---------------------------------------------------------------------------
    In December 2010, DHS issued a workforce strategy and a revised 
workforce planning guide to help the Department plan for its workforce 
needs. DHS components are in various stages of implementing these 
workforce planning efforts. In December 2012, we identified several 
factors that have hampered DHS's strategic workforce planning efforts, 
such as the lack of an effective oversight approach for monitoring and 
evaluating components' progress in implementing strategic workforce 
planning.\3\ We recommended that DHS, among other things, identify and 
document additional performance measures to assess workforce planning 
efforts at the component level, integrate human capital audit results 
with components' annual operational plans, and provide timely feedback 
on those plans. DHS agreed with these recommendations and stated that 
it plans to take actions to address them.
---------------------------------------------------------------------------
    \3\ GAO-13-65.
---------------------------------------------------------------------------
    We have also previously reported on workforce planning-related 
challenges at DHS and its components. These challenges include 
collecting and analyzing workforce data, determining optimal staffing, 
and identifying gaps in workforce needs, amongst others. For example, 
in April 2012, we reported that the Federal Emergency Management 
Agency's (FEMA) workforce-related decisions could be enhanced by 
developing systematic processes to collect and analyze its agency-wide 
workforce and training data.\4\ Without systematically collecting and 
analyzing workforce and training data, FEMA will be limited in its 
understanding of its workforce and training needs. Further, in 
September 2012, we reported that most of DHS's major acquisition 
programs experienced workforce shortfalls--specifically a lack of 
Government personnel-increasing the likelihood their programs will 
perform poorly in the future.\5\
---------------------------------------------------------------------------
    \4\ GAO-12-487.
    \5\ GAO-12-833.
---------------------------------------------------------------------------
    Should Congress or DHS determine that workforce reductions or 
streamlining is warranted at the Department, our body of work on prior 
workforce reductions at the Department of Defense (DOD) and other 
organizations can provide important lessons learned and highlight the 
importance of strategic workforce planning, including a consideration 
of costs, to help ensure that DHS has a fully capable workforce to 
carry out its mission. For example, in July 2012, we testified that 
DOD's downsizing in the early 1990s did not focus on reshaping the 
civilian workforce in a strategic manner.\6\ This downsizing resulted 
in significant imbalances in terms of shape, skills, and retirement 
eligibility and a workforce characterized by a growing gap between 
older, experienced employees and younger, less experienced ones. We 
also found that DOD's efforts were hampered by incomplete data and the 
lack of a clear strategy for avoiding the adverse effects of downsizing 
and minimizing skills imbalances.
---------------------------------------------------------------------------
    \6\ GAO-12-962T.
---------------------------------------------------------------------------
    Our prior work on the downsizing conducted by other organizations 
adds further perspective on some challenges associated with certain 
strategies and the need to conduct effective planning when downsizing a 
workforce. In 1995, we conducted a review of downsizing undertaken by 
17 private companies, 5 States, and 3 foreign governments, generally 
selected because they were reputed to have downsized successfully.\7\ 
We reported that:
---------------------------------------------------------------------------
    \7\ GAO/GGD-95-54.
---------------------------------------------------------------------------
  <bullet> a number of factors may constrain organizations' downsizing 
        strategies, such as public sentiment, budget limitations, 
        legislative mandates to maintain certain programs, and 
        personnel laws;
  <bullet> using attrition as a sole downsizing tool can result in 
        skills imbalances in an organization's workforce because the 
        employees who leave are not necessarily those the organization 
        determined to be excess;
  <bullet> attrition is often not sufficient to reduce employment 
        levels in the short term; and
  <bullet> some workforce reduction strategies have been found to slow 
        the hiring, promotion, and transfer process and create skills 
        imbalances.
    We found that one key theme emerged from such downsizing efforts. 
Specifically, most organizations found that workforce planning had been 
essential in identifying positions to be eliminated and pinpointing 
specific employees for potential separation. In organizations where 
planning did not occur or was not effectively implemented, difficulties 
arose in the downsizing. For example, we reported that a lack of 
effective planning for skills retention can lead to a loss of critical 
staff, and that an organization that simply reduces the number of 
employees without changing work processes will likely have staffing 
growth recur eventually.
    With the long-term fiscal challenges currently facing the Nation, 
streamlining the DHS workforce, as well as those of other Federal 
agencies, may be considered in the future as an option to achieve cost 
savings. These decisions should be made with care. If reductions are 
made, it is imperative that DHS cautiously and strategically take into 
account Department-wide critical skills and competencies needed to 
maintain and meet its mission, drawing upon experiences and lessons 
learned from other agencies, as appropriate.
    Question 2. To what extent has the Department assessed the 
managerial and cost impacts of increased telework and alternate work 
schedules? What cost savings, if any, could DHS incur and what 
challenges in the Department's management and information sharing could 
result?
    Answer. We have not examined DHS's telework and alternative work 
schedule policies and practices. As a result, we are unable to comment 
on DHS's use of telework and alternative work schedules and the extent 
to which these practices have led to cost savings and challenges. 
However, telework and alternative work schedule policies and practices 
have both been cited as important management strategies with benefits 
for both the organization and employees. For example, the benefits of 
telework include supporting continuity of operations during 
emergencies, contributing to a greener environment, increasing 
employees' ability to balance work and life demands, decreasing 
facility operating costs, and improving employee retention and 
recruitment. For more than a decade, Congress has indicated its desire 
that agencies create telework programs. In 2010, the Telework 
Enhancement Act of 2010 (the Act) was enacted.\8\
---------------------------------------------------------------------------
    \8\ Pub. L. No. 111-292, 124 Stat. 3165.
---------------------------------------------------------------------------
    The Act required Federal agencies to submit annual reports to the 
Office of Personnel Management (OPM) on their telework programs, and 
OPM to report annually to Congress on the telework programs of each 
agency, among other things. According to OPM's 2012 telework report, 10 
percent of eligible DHS employees reported teleworking in September 
2011, and DHS's established goal for the next reporting period is 15 
percent. The Act also calls for OPM to assess progress made by agencies 
in achieving any identified, non-participation goals (e.g., energy use, 
recruitment, retention, and employee attitudes). OPM reported that 
agency progress on measuring telework cost savings and results on 
telework goals other than participation are a work in progress.

                                 <all>

</pre></body></html>
